No. 20-____
IN THE

Supreme Court of the United States
————
BOFI HOLDING, INC., et al.,
Petitioners,

v.

HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
POLLY TOWILL
JOHN M. LANDRY
SHEPPARD, MULLIN,
RICHTER & HAMPTON LLP
333 South Hope Street
43d Floor
Los Angeles, CA 90071
(213) 620-1780
ESHEL BAR-ADON
AXOS FINANCIAL, INC.
4350 La Jolla Village Drive
Suite 140
San Diego, CA 92122
(858) 350-6200

JOHN P. STIGI III
Counsel of Record
SHEPPARD, MULLIN,
RICHTER & HAMPTON LLP
1901 Avenue of the Stars
16th Floor
Los Angeles, CA 90067
(310) 288-3700
jstigi@sheppardmullin.com

Counsel for Petitioners
March 26, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
In Basic Inc. v. Levinson, 485 U.S. 224 (1988), this
Court recognized the fraud-on-the-market presumption
of reliance for private rights of action brought by
investors under Section 10(b) of the Securities Exchange
Act of 1934 and Securities and Exchange Commission
Rule 10b-5. The fraud-on-the-market presumption is
predicated upon the “efficient capital markets hypothesis”
(ECMH). The ECMH posits that the market price of a
security trading in an efficient stock market reflects
all publicly available information, including any
misrepresentation, about the issuer of the securities
and its business. In Dura Pharmaceuticals, Inc. v.
Broudo, 544 U.S. 336 (2005), this Court held that in
such fraud-on-the-market cases the element of loss
causation requires more than a showing that the
alleged misrepresentation inflated a security’s market
price at the time of the investor’s purchase. An
investor-plaintiff also must show that the misrepresentation caused the investor’s economic loss when the
“truth beg[an] to leak out” publicly into the efficient
market.
The questions presented here are:
1. Whether disputed public allegations about an
issuer or its business, without any additional corroborating disclosure or event, reveal to an efficient
market the “truth” for purposes of establishing loss
causation under Dura (as held by the Sixth and Ninth
Circuits, in direct conflict with the Eleventh Circuit).
2. Whether allowing a plaintiff to show that a
disclosure or event revealed the “truth” about the
issuer or its business by pointing to the magnitude of
the decline in the price of the issuer’s stock conflicts
with Dura and misapplies Basic.
(i)

ii
3. Whether the Court should overrule Basic to the
extent it recognizes the ECMH, as that economic
theory sows confusion in the lower courts with respect
to the proper analysis of loss causation.

iii
PARTIES TO THE PROCEEDING
Petitioners are BofI Holding, Inc. (now named Axos
Financial, Inc.), Gregory Garrabrants, Andrew J.
Micheletti, Paul H. Grinberg, Nicholas A. Mosich and
James S. Argalas.
Respondent is
Pension System.

Houston

Municipal

Employees

CORPORATE DISCLOSURE STATEMENT
BofI Holding, Inc. (now named Axos Financial, Inc.)
has no parent corporation. BlackRock Inc. (a publicly
held company) holds 10% or more of its stock.

iv
PROCEEDINGS BELOW
United States District Court (S.D. Cal.):
Golden v. BofI Holding, Inc., Civ. No. 3:15-cv-02324GPC-KSC, Civ. No. 3:15-cv-02486-GPC-KSC (S.D. Cal.
Feb. 1, 2016)
In re BofI Holding, Inc. Securities Litigation, Civ.
Nos. 3:15-cv-02324-GPC-KSC, 2016 U.S. Dist. LEXIS
132574 (S.D. Cal. Sept. 27, 2016)
In re BofI Holding, Inc. Securities Litigation, Civ.
Nos. 3:15-cv-02324-GPC-KSC, 2017 U.S. Dist. LEXIS
79062 (S.D. Cal. May 23, 2017)
In re BofI Holding, Inc. Securities Litigation, Civ.
Nos. 3:15-cv-02324-GPC-KSC, 2017 U.S. Dist. LEXIS
198153 (S.D. Cal. Dec. 1, 2017)
In re BofI Holding, Inc. Securities Litigation, Civ.
Nos. 3:15-cv-02324-GPC-KSC, 2018 U.S. Dist. LEXIS
46694 (S.D. Cal. Mar. 21, 2018)
United States Court of Appeals (9th Cir.):
Houston Municipal Employees Pension System v.
BofI Holding, Inc. (In re BofI Holding, Inc. Securities
Litigation), No. 18-55415, 977 F.3d 781 (9th Cir. 2020)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDING ....................

iii

CORPORATE DISCLOSURE STATEMENT .....

iii

PROCEEDINGS BELOW ...................................

iv

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISION INVOLVED ............

1

PRELIMINARY STATEMENT ...........................

2

STATEMENT OF THE CASE ............................

6

I. Background ...............................................

6

II. Facts and Procedural History ..................

7

REASONS FOR GRANTING THE PETITION..

13

I. The Courts of Appeals are Divided Over
Whether Public Allegations May,
Without More, Reveal the “Truth” For
Purposes of Establishing Loss Causation
Under Dura ...............................................

13

II. The Ninth Circuit’s Decision Conflicts
With Dura and Misapplies Basic .............

19

III. The Court Should Consider Overruling
Basic ..........................................................

21

IV. The Questions Presented Are Important,
and Now Is the Time to Decide Them ......

28

CONCLUSION ....................................................

34

(v)

vi
TABLE OF CONTENTS—Continued
APPENDIX

Page

APPENDIX A: OPINION, Court of Appeals
for the Ninth Circuit (October 8, 2020) .........

1a

APPENDIX B: ORDER GRANTING MOTION TO DISMISS WITH PREJUDICE,
District Court of the Southern District of
California (March 21, 2018) ...........................

36a

APPENDIX C: ORDER, Court of Appeals
for the Ninth Circuit (November 16, 2020) ...

73a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Abrams v. United States,
250 U.S. 616 (1919) ...................................

22

Amgen Inc. v. Connecticut Ret.
Plans & Trust Funds,
568 U.S. 455 (2013) ................................... 22, 27
Arkansas Teacher Ret. Sys. v.
Goldman Sachs Grp., Inc.,
955 F.3d 254 (2d Cir.), cert. granted,
No. 20-222, ___ U.S. ___ (Dec. 11, 2020) ...

32

Basic Inc. v. Levinson,
485 U.S. 224 (1988) ..................................passim
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975) ................................... 6, 28
Citizens United v. FEC,
558 U.S. 310 (2010) ...................................

22

Curry v. Yelp Inc.,
875 F.3d 1219 (9th Cir. 2017) ............. 11, 12, 16
Dura Pharmaceuticals, Inc. v. Broudo,
544 U.S. 336 (2005) ..................................passim
Erhart v. BofI Holding, Inc.,
2020 U.S. Dist. LEXIS 57137
(S.D. Cal. Mar. 31, 2020) ..........................

9

Erhart v. BofI Holding, Inc.,
Case No. 3:15-cv-02287-BAS-NLS
(S.D. Cal. filed Oct. 13, 2015) ..................passim
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ..................................passim

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Houston Municipal Employees Pension
System v. BofI Holding, Inc.,
977 F.3d 781 (9th Cir. 2020) ....................passim
In re Vivendi, S.A. Sec. Litig.,
838 F.3d 223 (2d Cir. 2016) ......................

13

In re Williams Sec. Litig.-WCG Subclass,
558 F.3d 1130 (10th Cir. 2009) .................

13

Lebron v. National R.R. Passenger Corp.,
513 U.S. 374 (1995) ...................................

22

Lloyd v. CVB Fin. Corp.,
811 F.3d 1200 (9th Cir. 2017) ...................

12

Loos v. Immersion Corp.,
762 F.3d 880 (9th Cir. 2014) ............... 11, 12, 16
Meyer v. Greene,
710 F.3d 1189 (11th Cir. 2013) ................passim
Norfolk County Retirement Systems v.
Community Health Systems,
877 F.3d 687 (6th Cir. 2017) .....................

15

Payne v. Tennessee,
501 U.S. 808 (1991) ...................................

24

Pearson v. Callahan,
555 U.S. 223 (2009) ...................................

27

Puddu v. 6D Global Techs., Inc.,
742 Fed. Appx. 553 (2d Cir. Aug. 2,
2018) ..........................................................

32

Santa Fe Indus., Inc. v. Green,
430 U.S. 462 (1977) ...................................

31

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Sapssov v. Health Mgmt. Assoc.,
608 Fed. Appx. 855 (11th Cir. 2015) .. 13, 14, 15
Stoneridge Inv. Partners, LLC v.
Scientific-Atlanta, Inc.,
552 U.S. 148 (2008) ................................... 27, 28
Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 U.S. 308 (2007) ...................................

30

Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017) ........................

27

Wochos v. Tesla, Inc.,
985 F.3d 1180 (9th Cir. 2021) ................... 19, 20
CONSTITUTION
U.S. Const. amend. I ....................................

22

STATUTES
28 U.S.C. § 1254(l) ........................................

1

Private Securities Litigation Reform Act of
1995, Pub. L. 104-67, 109 Stat. 737 ........passim
15 U.S.C. § 78j(b) ......................................

2, 6

15 U.S.C. § 78u–4(a)(3) .............................

8

15 U.S.C. § 78u–4(b)(4) .............................

1

17 C.F.R. § 240.10b-5(b) ............................. 2, 6, 31

x
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

Annie Nova, More bubbles, less shorting.
What the GameStop craziness could
mean for the future of investing, CNBC
Personal Finance, https://www.cnbc.com/
2021/02/06/what-the-gamestop-crazinesscould-mean-for-the-stock-markets-future.
html (last visited Feb. 7, 2021).................

25

Chubb, From Nuisance to Menace: The
Rising Tide of Securities Class Action
Litigation (June 2019), https://bit.ly/3cvb
Ix4 ..............................................................

29

Cornerstone Research, Securities Class
Action Filings: 2020 Year in Review
(2021), available at https://www.cornerst
one.com/Pub lications/Reports/SecuritiesClass-Action-Filings-2020-Year-in-Review.
pdf......................................................................

32

Eric Belasco, et al., The Impact of Passive
Investing on Corporate Valuations,
Managerial Finance (2012) ......................

24

Geoffrey Rapp, Rewiring the DNA of
Securities Fraud Litigation: Amgen’s
Missed Opportunity, 44 Loy. U. Chi. L.J.
1475 (2013) ................................................

27

H.R. Conf. Rep. 104-369, reprinted in 1995
U.S.C.C.A.N. 730, 740 ..............................

30

xi
TABLE OF AUTHORITIES—Continued
Page(s)
J.B. Heaton, GameStop Hype Exposes
Securities Litigation Theory’s Flaws,
https://www.law360.com/corporate/article
s/1363958/gamestop-hype-exposes-securi
ties-litigation-theory-s-flaws?nl_pk=c38f
a7a2-7809-4c06-97cd-17de08224057&ut
m_source=newsletter&utm_medium=em
ail&utm_campaign=corporate (last visited Mar. 14, 2021) ....................................

25

John C. Coffee, Jr., The Changing Character
of Securities Litigation in 2019: It’s Time
to Draw Some Distinctions, CLS Blue Sky
Blog (Jan. 22, 2019) ..................................

29

Joshua Mitts, Short and Distort, Columbia
Law and Economics, Working Paper No.
592 (2018) ..................................................

25

Joshua Mitts, “Short Sellers and Plaintiffs’
Firms: A Symbiotic Ecosystem,” The
CLS Blue Sky Blog, Oct. 14, 2020, https://
clsbluesky.law.columbia.edu/2020/10/14/
short-sellers-and-plaintiffs-firms-a-symbi
otic-ecosystem/ ..........................................

25

Kevin LaCroix, Rare Securities Class
Action Lawsuit Trial Results in Partial
Verdict for Plaintiffs, D&O Diary (Feb. 5,
2019) <tiny url.com/raresecuritiestrial> ....

29

Note, Congress, the Supreme Court, and the
Rise of Securities-Fraud Class Actions,
132 Harv. L. Rev. 1067 (2019) ..................

26

xii
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Chamber Institute for Legal Reform, A
Rising Threat: The New Class Action
Racket That Harms Investors and the
Economy (2018) .........................................

30

Vladyslav Sushko, et al., The implications
of passive investing for securities, BIS
Quarterly Review (Mar. 2018)..................

24

PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (App., infra, 1a35a) is reported at 977 F.3d 781 (9th Cir. 2020). The
court of appeals’ denial of rehearing and rehearing
en banc (App., infra, 73a) and the opinion of the
district court granting petitioners’ motion to dismiss
with prejudice (App., infra, 36a-72a) are unreported.
JURISDICTION
The judgment of the court of appeals was entered on
October 8, 2020. A timely petition for rehearing was
denied on November 16, 2020 (App., infra, 73a). The
jurisdiction of the Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISION INVOLVED
The Private Securities Litigation Reform Act of
1995, Pub. L. 104-67, 109 Stat. 737 (codified as
amended in scattered sections of 15 U.S.C.) (PSLRA),
provides in pertinent part:
In any private action arising under this
chapter, the plaintiff shall have the burden of
proving that the act or omission of the
defendant alleged to violate this chapter
caused the loss for which the plaintiff seeks to
recover damages.
15 U.S.C. § 78u–4(b)(4).

2
PRELIMINARY STATEMENT
This case lies at the intersection of two of the Court’s
most important decisions regarding private securities
class action litigation: Basic Inc. v. Levinson, 485 U.S.
224 (1988), and Dura Pharmaceuticals, Inc. v. Broudo,
544 U.S. 336 (2005). In Basic, the Court endorsed
the “fraud-on-the-market” presumption of reliance in
cases exercising the private rights of action under
Section 10(b) of the Securities Exchange Act of 1934
and Securities and Exchange Commission (SEC) Rule
10b-5. That presumption rests upon the “efficient
capital markets hypothesis” (ECMH), an economic
theory that the market price of a security trading
in an efficient market reflects all publicly available
information (including any misrepresentations) about
the issuer and its business. In Dura, the Court held
that in “fraud-on-the-market” cases, satisfying the
element of loss causation requires more than a
showing that a misrepresentation inflated a security’s
market price at the time of the investor-plaintiff’s
purchase. A securities class action plaintiff also must
show that the misrepresentation caused an economic
loss “after the truth makes its way into the market.”
Here, a panel majority of the Ninth Circuit held that
the filing of a self-styled civil “whistleblower” employment lawsuit by a disgruntled junior former employee
of the issuer, laden with speculative, vigorously contested
and never-proven allegations of internal misconduct,
was a “corrective disclosure” that revealed the “truth”
about the issuer’s banking business to the efficient
market. The court held that, whether or not actually
true, the contested allegations revealed the “truth”
because, in the majority’s view, it was plausible an
efficient market “perceived [the] allegations as credible and acted upon them on the assumption that they

3
were true.” The court held that a substantial factor
supporting this conclusion was the magnitude of the
price drop (30%) of the issuer’s stock following the
filing of the former employee’s lawsuit.
In the five-and-a-half years since the former employee’s
lawsuit was filed, despite numerous internal investigations, governmental investigations and external
audits, not one of the former employee’s allegations
has been independently corroborated or had any
actual impact on the issuer’s heavily regulated (and
very successful) banking business. BofI never suffered
loan losses in excess of reported reserves, issued a
restatement of its financials, disclosed a material
weakness in its systems of internal controls, received
a qualification from its independent auditors, was the
subject of a formal enforcement action commenced by
a government agency, paid any regulatory fines or
suffered any governmental-imposed restriction on the
bank or its ability to conduct its business.
The questions presented are three-fold. The first
question seeks to resolve a circuit split in the application of Dura’s holding that a misrepresentation causes
an economic loss “after the truth makes its way into
the [efficient] market.” The Ninth Circuit here joined
the Sixth Circuit in holding that complaint allegations
may be treated as revealing the “truth” within the
meaning of Dura, even absent any corroboration that
the allegations are true. This deepened a pre-existing
split between those circuits and the Eleventh Circuit,
which holds that complaint allegations do not reveal
the “truth” to an efficient market without some additional corroborating disclosure, such as a finding by a
regulator or an admission by the issuer. On this point,
Ninth Circuit Judge Kenneth Lee dissented from the
majority, describing its decision as incompatible with

4
“case law and common sense.” Judge Lee recognized
that permitting an inference of loss causation to be
predicated upon “unsubstantiated allegations that may
turn out to be nothing more than wisps of innuendo
and speculation” risks “impos[ing] an exorbitant cost
on companies.” The Court should resolve this circuit
conflict to restore certainty for issuers in our national
securities markets and deter securities class action
“strike suits” that piggy-back on or coordinate with
uncorroborated, self-interested complaint allegations
by adversaries of an issuer.
The second question addresses a conflict between
the Ninth Circuit’s decision and Dura. In a fraud-onthe-market case, an issuer’s stock price is presumed to
react to (and thereafter reflect) all newly available
material information about the issuer, even if that
information is false. The presumption, though, does
not work in reverse. Not every stock price reaction is
presumed to be caused by newly available material
information, let alone newly available information
correcting an earlier misstatement. Yet that is precisely what the majority presumed here. It concluded
that the former employee’s allegations revealed the
“truth” about the issuer in large part because the
issuer’s stock price declined after the filing of the
employee’s lawsuit. Every securities class action is
triggered by a stock price drop; hence the moniker
“stock drop cases.” The Ninth Circuit’s misapplication
of Dura thus effectively presumes loss causation in
all fraud-on-the-market securities class actions. It
renders pleading and proving the essential element of
loss causation a mere perfunctory exercise. The Court
should correct this legal error.
The third question asks the Court to consider
overruling Basic due to its reliance upon on the ECMH

5
— the theoretical foundation for all loss causation
showings in fraud-on-the-market cases. When the
Court was last urged to do so in Halliburton Co. v.
Erica P. John Fund, Inc., 573 U.S. 258 (2014)
(Halliburton II), Justice Thomas (in a concurring
opinion joined by Justices Scalia and Alito) laid out the
compelling legal and policy reasons for overruling
Basic. In the six-and-a-half years since, academic literature and legal commentary have reconfirmed Justice
Thomas’ reasoning. Securities class actions continue
to be a costly drag on the effective functioning of the
U.S. capital markets, while providing no meaningful
compensation to victims or effective deterrence.
The Ninth Circuit’s decision will have severe practical consequences for publicly traded companies. Not
only does it facilitate the filing of meritless securities
claims, it provides a potent new weapon that adversaries of public companies may now wield with
reckless abandon. Competitors, prospective acquirers,
disgruntled employees and short-sellers can publicize
unsubstantiated allegations of insider wrongdoing,
trigger a stock price drop and lie in wait for a
potentially devastating “bet the company” securities
class action. A hostile acquirer can use this new
leverage to facilitate extortion in merger talks with a
publicly traded company: “drop the price or we will
tell the market we think you were cooking the books.”
The target’s management would be faced with a
conundrum: agree to sell the company “on the cheap”
or risk years of costly, distracting and reputationkilling securities class action litigation. Either way,
innocent investors and issuers would lose. Requiring
a plaintiff to identify independent corroboration or
objective manifestation of the corporate adversary’s
allegations in order to establish loss causation would

6
avoid this problem without any derogation of the
rights of true victims of securities fraud.
The questions presented are of significant legal and
practical importance and this case is an optimal
vehicle for addressing them. The Court should grant
this petition for a writ of certiorari.
STATEMENT OF THE CASE
I. Background
1. Section 10(b) of the Securities Exchange Act of
1934 (Exchange Act) prohibits the “use or employ[ment]”
of any “deceptive device” “in connection with the
purchase or sale of any security” in contravention of
rules prescribed by the Securities and Exchange
Commission (SEC). 15 U.S.C. § 78j(b). SEC Rule 10b5(b) forbids entities subject to the Exchange Act from
“mak[ing] any untrue statement of a material fact”
or “omit[ting] to state a material fact necessary in
order to make the statements made . . . not misleading.” 17 C.F.R. § 240.10b-5(b). The Court has inferred
from those sources of law a private right of action
permitting the recovery of damages for securities
fraud. See Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723, 730 (1975). The elements of a Rule 10b5 claim are (1) a material misstatement or omission;
(2) scienter; (3) a connection with the purchase or sale
of a security; (4) reliance; (5) economic loss; and (6) loss
causation (i.e., that the misrepresentation caused the
asserted loss). See Dura, 544 U.S. at 341-342.
2. In Basic, the Court created a “rebuttable presumption” of investor reliance. Basic, 485 U.S. at 242.
That presumption was based upon the “fraud on the
market” theory, which in turn was predicated in part
upon the ECMH, a hypothesis that the price of a
company’s stock, when it trades in an efficient market,

7
reflects all publicly available material information
about the company.
3. In Dura, the Court addressed the element of loss
causation in “fraud-on-the-market” cases. The Court
held that a securities plaintiff must plead and prove
that a defendant’s misrepresentations or other fraudulent conduct (as opposed to other events) proximately
caused the investors’ loss. See Dura, 544 U.S. at 342343, 345-346. The Court rejected the notion that an
allegation of “price inflation” alone was sufficient,
observing that if “the purchaser sells the shares
quickly before the relevant truth begins to leak out,
the misrepresentation will not have led to any loss.”
Id. at 342. The Court criticized “[t]he complaint’s
failure to claim that [the company’s] share price fell
significantly after the truth became known.” Id. at
347. Under Dura, a securities class action plaintiff
must plead and prove that the misrepresentation
caused an economic loss “after the truth makes its way
into the market.” Id. at 342.
II. Facts and Procedural History
1. Petitioners are BofI Holding, Inc. (“BofI”)1 and
five of its officers or directors. Founded in 1999, BofI
offers consumer and business checking, savings and
time-deposit accounts, and financing for residential
and commercial real estate, businesses and vehicles.
During the alleged class period, BofI’s common stock
publicly traded on NASDAQ.

1

On October 1, 2018, BofI Holding, Inc. changed its name
to Axos Financial, Inc. For ease of reference, we will continue
to refer to the corporate petitioner (along with its subsidiary,
previously known as BofI Federal Bank) as “BofI.”

8
BofI derives operational efficiencies by distributing
its loan and deposit products through a variety of
marketing channels rather than through an expensive
branch network. BofI has a history of low loan losses
because of its adherence to strong underwriting standards and maintenance of a low weighted average loanto-value ratio of around 60% across its loan portfolio.
As a federally chartered financial institution, BofI
is subject to extensive regulation by its principal
regulator, the United States Office of the Comptroller
of the Currency (OCC), as well as by the Federal
Deposit Insurance Corporation, the Federal Reserve
Board, the SEC and others. OCC bank examiners
perform frequent, on-site examinations to review BofI’s
performance, management, financial condition and
compliance with banking regulations. BofI’s financial
statements are reviewed and audited by an independent
public accounting firm, BDO USA LLP.
At no time since the start of the putative class period
in this case (September 4, 2013) has BofI reported loan
losses in excess of reserves, issued a restatement,
disclosed a material weakness in its systems of internal
controls, received a qualified opinion from its auditors,
been the subject of a formal governmental enforcement action, paid any regulatory fine or suffered any
government-imposed restriction on the bank’s ability
to conduct its business.
2. Respondent Houston Municipal Employees Pension
System allegedly purchased BofI common stock between
September 4, 2013 and February 3, 2016 (the putative
class period). Pursuant to the PSLRA, 15 U.S.C.
§ 78u-4(a)(3), the United States District Court for the
Southern District of California (Curiel, J.) appointed
respondent as the lead plaintiff in this action.

9
3. This action has its genesis in the allegations of
Charles Matthew Erhart, a former junior internal
auditor at BofI. In March 2015, Erhart left BofI and
never returned. On October 13, 2015, Erhart filed a
lawsuit against BofI accusing it of wrongful termination.
See Erhart v. BofI Holding, Inc., Case No. 3:15-cv02287-BAS-NLS (S.D. Cal. filed Oct. 13, 2015) (Erhart
Action). Erhart alleged he was constructively terminated in retribution for purportedly reporting to the
OCC, SEC and his supervisors a litany of alleged
internal misconduct and potential compliance violations. All were investigated, both internally by BofI’s
Audit Committee and independent counsel, and externally by government regulators and outside auditors.
None of the investigations found any merit in Erhart’s
speculative, immaterial and/or ill-informed allegations.2
4. At the same time Erhart filed his complaint, The
New York Times published an article summarizing his
allegations. The next day, BofI’s stock declined by
30.2%.3 The day after that, the first of several class
action complaints was filed.
5. The gravamen of this securities case is that
petitioners allegedly “misrepresented the risks of investing in BofI” that were purportedly “revealed” by
Erhart’s allegations. Respondent alleged that BofI
represented itself as a “careful, prudent institution,”
2

The district court in the Erhart action later granted summary judgment dismissing nearly all aspects of Erhart’s federal
claims. See Erhart v. BofI Holding, Inc., 2020 U.S. Dist. LEXIS
57137 (S.D. Cal. Mar. 31, 2020). No trial date has been set on the
remaining claims.
3

Subsequent investigation indicated coordination between
Erhart’s counsel and short-sellers of BofI stock seeking to profit
from the decline in BofI’s stock price. To their chagrin, BofI’s
stock price has since recovered fully.

10
yet secretly “disregard[ed] internal controls” attendant
to regulatory compliance and made risky loans in order
to increase loan volume and earnings. Respondent
did not allege that the supposedly concealed “risks”
to BofI’s business from these alleged activities ever
materialized. It did not (and could not) allege, for
example, that BofI ever reported losses in excess of
reserves, a spike in reserves due to supposedly risky
loans, a material weakness in its internal controls or
a formal enforcement action stemming from governmental reviews and investigations into these alleged
activities.
Respondent’s operative Third Amended Class Action
Complaint (“TAC”) focuses on alleged misstatements
in three categories: (1) internal controls, compliance
infrastructure and risk management; (2) underwriting
standards and credit quality; and (3) governmental
investigations. To support its information and belief
that the challenged statements were deliberately false
or misleading, respondent relied upon (i) anecdotal
complaints of nine unnamed former employees (referred
to as confidential witnesses or CWs);4 (ii) blog posts by
anonymous short-sellers on the Seeking Alpha crowdsourced financial blog; and (iii) allegations of misconduct
and potential compliance violations in the complaint
in the Erhart Action. Respondent alleged that the
complaint in the Erhart Action and the anonymous
4

None of the CWs was employed at BofI during the entire
putative class period, and some left BofI before the class period
even started. One pled guilty to 24 felonies, including to embezzling more than $476,000 from BofI. All were manifestly disgruntled,
and expressed only anecdotes, opinions and/or hyperbole. None
identified a single unpaid loan, material weakness in BofI’s
systems of internal controls or actual (as opposed to potential)
compliance violation at BofI at any point before, during or after
the putative class period.

11
Seeking Alpha blog posts were “corrective disclosures”
of the “truth” for purposes of pleading loss causation.
Petitioners moved to dismiss the TAC for failure to
plead loss causation and failure to satisfy the PSLRA’s
heightened pleading requirements.
6. On March 21, 2018, the district court granted
petitioners’ motion to dismiss for failure to plead loss
causation. Addressing the Erhart Action allegations,
the district court applied then-prevailing Ninth Circuit
authority which held that publicly announced investigations (see Loos v. Immersion Corp., 762 F.3d 880
(9th Cir. 2014)) and third-party complaint allegations
(see Curry v. Yelp Inc., 875 F.3d 1219 (9th Cir. 2017))
do not reveal the “truth” about a fraud, but rather only
the potential or risk that a fraud occurred.
7. On de novo review, a majority of the Ninth
Circuit panel reversed in part. App., infra. It held
that the Erhart Action complaint, even without a
subsequent fraud-confirming disclosure, was a “corrective disclosure.” Id. at 17a. The court devised and
analyzed a series of factors, including the extent to
which BofI’s stock price dropped after the filing of the
Erhart Action, to conclude that the TAC plausibly
showed that “the market reasonably perceived Erhart’s
allegations as true and acted upon them.” Id. at 16a.5

5

The Ninth Circuit also held (in a single passing sentence)
that the TAC met the heightened pleading standards of the
PSLRA. Id. at 14a. The decision below is the first by any court
of appeals to hold that a securities class action plaintiff satisfied
the PSLRA pleading standards based solely upon the say-so of
former employees without the occurrence of an actual adverse
business event (such as an earnings miss, product recall or
enforcement action) caused by or even relating to the allegedly
concealed “true” facts.

12
8. Judge Lee dissented in part. He seized on the
anomaly of a securities fraud case proceeding in the
absence of any adverse business event purportedly
caused by the alleged false statements:
Philosophers have long debated the question,
“If a tree falls in the forest but no one is
around to hear it, does it make a sound?” This
case perhaps presents the converse of that
conundrum: If there is no fraud, can a
securities fraud lawsuit still proceed?
Id. at 30a (Lee, J., dissenting in part). According to
Judge Lee, allowing securities plaintiffs to premise
corrective disclosures of the “truth” on a former
employee’s “unsubstantiated assertions” in a lawsuit
without any additional external disclosures confirming the allegations did not “comport[] with our case
law or common sense.” Id. at 30a. He noted that at
the time BofI’s stock price declined, the market could
not possibly have known whether the Erhart allegations were credible, and nothing in the five years since
has even remotely corroborated “Erhart’s self-interested allegations.” Id. at 32a. “[A]t this time, the drop
in BofI’s share price ‘can only be attributed to market
speculation about whether fraud has occurred.’” Id. at
34a (quoting Loos). Consistent with Curry, Loos and
Lloyd v. CVB Fin. Corp., 811 F.3d 1200 (9th Cir. 2017),
Judge Lee would have required “additional external
confirmation of fraud allegations in a whistleblower
lawsuit for them to count as ‘corrective disclosures.’”
App., infra, 30a.
9. On November 16, 2020, the court of appeals
denied petitioners’ petition for rehearing and rehearing
en banc.

13
REASONS FOR GRANTING THE PETITION
I. The Courts of Appeals are Divided Over
Whether Public Allegations May, Without
More, Reveal the “Truth” For Purposes of
Establishing Loss Causation Under Dura
1. Loss causation requires proof that an artificially
inflated purchase price declined after “the truth became
known” to the market. Dura, 544 U.S. at 342-343, 347.
It is generally recognized that this showing requires a
public disclosure or event that revealed a fact previously misrepresented or wrongfully omitted. See, e.g.,
In re Vivendi, S.A. Sec. Litig., 838 F.3d 223 (2d Cir.
2016) (describing loss causation as generally requiring
proof a “misstatement or omission concealed something
from the market that, when disclosed, negatively
affected the value of the security”); In re Williams Sec.
Litig.-WCG Subclass, 558 F.3d 1130, 1138 (10th Cir.
2009) (“Plaintiff must establish that his losses were
attributable to some form of revelation to the market
of the wrongfully concealed information.”) (citation
omitted).
The first question presented in this petition is
whether unsubstantiated public allegations of issuer
misconduct, without any additional verifying disclosure
or business event that objectively manifests the correctness of the disputed allegations, reveal the “truth.”
The three Circuits that have addressed this question
— the Sixth, Ninth and Eleventh — split into two
distinct camps.
2. The Eleventh Circuit holds that public allegations of misconduct made in a separate lawsuit against
the issuer cannot, standing alone, reveal the “truth”
for purposes of establishing loss causation. Sapssov v.
Health Mgmt. Assoc., 608 Fed. Appx. 855, 863 (11th

14
Cir. 2015). In Sapssov, a hospital system publicly
represented that its inpatient admissions policy complied with regulations and accounted for its financial
success. Id. at 861. Thereafter, a former employee
filed a whistleblower complaint alleging the admissions
policy was non-compliant, and a securities analyst
published a report summarizing the allegations. In
a subsequent securities fraud lawsuit, the plaintiffs
alleged that this summary, alone, and together with
an earlier publicly announced regulatory investigation
of the hospital system, revealed the falsity of its
statements. Id. at 858, 863.
The court held the whistleblower’s allegations of
wrongdoing to be incapable of revealing anything
beyond the allegations themselves. Id. at 863. Treating them as unsubstantiated, untested and subject to
challenge, the court of appeals observed that the
“whistleblower case, the basis of the [analyst’s report],
was not proof of liability.” It concluded that, whether
“[t]aken independently or combined,” the investigation
and the employee’s allegations were “inadequate to
establish the falsity of [the hospital system’s] disclosures.”
Id. at 864.
Sapssov rests squarely on the Eleventh Circuit’s
earlier decision in Meyer v. Greene, 710 F.3d 1189
(11th Cir. 2013). There, the court of appeals held
that the commencement of an SEC investigation did
not “reveal[] to the market the pertinent truth of
anything.” Id. at 1201 n.13 (alteration in original)
(internal quotation marks omitted). Meyer suggested
that such investigation could at some point in time
“qualify as a partial corrective disclosure” if, for
example, it led to a finding or admission of fraud or
culminated in a financial restatement. See id. As the
court explained, only upon such later disclosure or

15
event would the actual “truth” enter the market,
making it possible to causally link any loss resulting
from the investigation to a misstatement. Id. (“It is,
after all, impossible to say that an SEC investigation
was the moment when the ‘relevant truth beg[an] to
leak out’ if the truth never actually leaked out.”)
(quoting Dura, 544 U.S. at 342) (alteration in original).
These same principles logically apply to disputed
complaint allegations.
3. In contrast to the Eleventh Circuit, the Sixth
Circuit holds that a separate lawsuit’s public allegations can reveal the “truth.” In Norfolk County
Retirement Systems v. Community Health Systems,
877 F.3d 687, 697 (6th Cir. 2017), as in Sapssov, the
defendant was a hospital system that attributed its
financial results to superior operating performance
rather than improper admissions procedures. Id. at 691.
Even though the Sixth Circuit confronted essentially
the same loss causation theory advanced in Sapssov,
it reached the opposite result. It held that each
putative disclosure of truth, including mere allegations
of misconduct, must be examined “individually (and in
the context of other disclosures) to determine whether
the market could have perceived it as true.” Id.
(emphasis added). It applied this test to the public
allegations of misconduct in a separate lawsuit by a
competitor against the issuer that described the results
of expert data analyses showing the admissions
practices’ effects on defendant’s financial performance.
The Sixth Circuit determined that there was no basis
“other than the analyses’ placement in a complaint”
to find the market did not regard the analyses “as
anything other than credible” and so “revealed a
truth that [the hospital system] . . . had until then
fraudulently concealed.” Id. at 697.

16
4. In its decision below, the Ninth Circuit declared
expressly that it was joining the Sixth Circuit in
treating allegations as capable of revealing the “truth.”
App., infra, 17a. Describing the district court below as
having “held that allegations in a lawsuit, standing
alone, can never qualify as a corrective disclosure
because they are just that—allegations, as opposed to
‘truth’” the Ninth Circuit, like the Sixth Circuit,
“reject[ed] any such categorical rule.” Id. Applying
several factors, it concluded that the TAC set forth
facts showing the market reasonably perceived Erhart’s
allegations as “worthy of belief” and therefore “true.”
Id.6
A well-defined circuit split now exists as the
decisions of the Sixth and Ninth Circuits are wholly
irreconcilable with that of the Eleventh Circuit.
Notably, the Ninth Circuit not only adopted the Sixth
Circuit’s approach but elaborated upon it, identifying
and applying specific factors. As a result of this
amplification, the circuit divide has sharpened, and no
further development in the courts of appeals is needed
before this Court resolves the question presented.
6

The Ninth Circuit panel majority strained to distinguish its
own precedents. App., infra, 18a-19a (purporting to distinguish
Loos and Curry). In Loos, the Ninth Circuit adopted the Eleventh
Circuit’s decision in Meyer to hold that an announced internal
investigation of potential fraud, standing alone, cannot reveal the
truth. Loos, 762 F.3d at 889. In Curry, the Ninth Circuit applied
Loos (and, hence, Meyer) to hold that consumer complaints that
were filed with the Federal Trade Commission, when they became
public, revealed only the risk or potential that an issuer’s prior
statements were false and so did not establish loss causation.
Curry, 875 F.3d at 1225-27. Judge Lee, in his dissent, argued that
Loos and Curry mandated a different result. App., infra, 34a. He
also voted in favor of en banc review. App., infra, 73a. The Ninth
Circuit chose instead to leave its own precedents unreconciled.

17
5. The Ninth and Sixth Circuits have come down
on the wrong side of the circuit split. Treating
unsubstantiated allegations of company misconduct as
capable of revealing the “truth” whenever the court
divines that market participants “perceived [them] as
true” incorrectly equates proof of perceived “truth”
with proof that the actual “truth became known.”
Dura, 544 U.S. at 347 (emphasis added). Nothing in
Dura suggests the market’s perception of allegations
as credible can substitute for the actual revelation of
“truth.” As noted by Judge Lee, a separate lawsuit’s
allegations do not reveal any “truth” but rather only
“disclos[e] . . . ‘an added risk of future corrective
action.’” See App., infra, 33a-34a (Lee, J., dissenting
in part) (quoting Meyer, 710 F.3d at 1201).
As Basic makes clear, the market’s perception of a
statement as “true” cannot be a determinant of, or a
proxy for, the actual “truth” having entered the
market. See Basic, 485 U.S. at 246 (noting studies
showing “market price of shares . . . reflects all publicly
available information, and, hence, any material
misrepresentations”) (emphasis added). In this case,
the Ninth Circuit nevertheless held that because the
market could have reasonably perceived unsubstantiated and vigorously disputed allegations by a former
BofI employee as “credible,” the allegations alone must
be treated as the “truth” entering the market. This
artifice ignores the undisputed reality that after more
than five full years not a single one of the “risks”
purportedly “revealed” by the Erhart complaint has
materialized, and not a single one of his allegations of
wrongdoing has been confirmed, corroborated or
objectively manifested by an adverse business event.
Indeed, BofI’s subsequent financial performance and
record of regulatory compliance more strongly suggest
that Erhart’s allegations revealed not “truth” under

18
Dura but self-interested speculation. The danger that
a supposedly corrective allegation of internal misconduct might in fact be fictional (a risk heightened when
public allegations of corporate misconduct are made by
disgruntled employees or other corporate adversaries
in litigation seeking millions of dollars from the issuer)
is precisely what led Judge Lee to insist that some
external confirmation be required:
It need not be a mea culpa from the company,
but perhaps a surprise restatement of earnings,
an unexplained announcement about an
increase in reserves, or some other information that confirms those allegations and
thus acts as a corrective disclosure.
See App., infra, 35a.
6. The Eleventh Circuit’s approach is the correct
one. It recognizes that stock price drops following
misconduct allegations do play a role in a loss causation analysis, but their relevancy must await some
additional confirmatory event or disclosure. Meyer,
710 F.3d at 1201 n.13. Only then can it be inferred
that the market’s reaction stemmed from its having
anticipated (correctly) that the potential “truth” would
in fact become “known.” Ibid. Until then, any loss
causation showing based on mere allegations alone
is “premature.” App., infra, 32a (Lee, J., dissenting
in part).
The Court should resolve this circuit split by
establishing a rule of loss causation that comports
with the express language of Dura.

19
II. The Ninth Circuit’s Decision Conflicts
With Dura and Misapplies Basic
The second question addresses a related conflict
between the decision below and Dura and a misapplication of Basic. The Ninth Circuit’s test to determine
whether “the truth became known” includes as a
leading factor the degree to which the market price for
the security allegedly reacted to the public allegations.
App., infra, 17a (noting “BofI’s stock price plunged by
more than 30% on extremely high trading volume” and
stating that “[a] price drop of that magnitude would
not be expected in response to whistleblower allegations perceived as unworthy of belief”). Use of this
factor to determine loss causation has no merit, for
it confounds the distinct concepts of loss and loss
causation. A securities fraud claim requires a “loss
the purchaser sustains when the [concealed] facts . . .
become generally known and as a result share value
depreciate[s].” Dura, 544 U.S. at 344 (second and third
alterations in original) (emphasis added) (internal
quotation marks omitted). Hence, the “truth” must
first become known, and then any loss sustained must
result from the market’s reaction to that “truth.” The
Ninth’s Circuit’s test works in reverse. It uses the
market’s reaction — the fact and extent of the stock
price drop — to infer that the “truth” became known
and caused the drop. See App., infra, 17a.7

7

A more recent decision from the Ninth Circuit exacerbates
this problem. In Wochos v. Tesla, Inc., 985 F.3d 1180 (9th Cir.
2021), the Ninth Circuit affirmed the denial of leave to amend,
holding that amendment would be futile because the plaintiffs
would be unable to establish loss causation. The court noted that
although the issuer’s stock price dropped in the immediate
aftermath of a Wall Street Journal article supposedly disclosing
the “truth,” “the stock price immediately rebounded, . . . over the

20
Dura precludes this inference. Dura’s holding rests
on the principle that a later lower price does not
necessarily indicate a loss resulting from the “truth”
having entered the market. See Dura, 544 U.S. at 342
(noting, for example, the absence of loss causation
when the purchaser resells “before the relevant truth
begins to leak out”). As Dura further observes, even
when the “truth” does enter the market, a “lower price
may reflect, not the earlier misrepresentation, but
changed economic circumstances, changed investor
expectations, new industry-specific or firm-specific
facts, conditions, or other events, which taken separately
or together account for some or all of that lower price.”
Id. at 343. Whether a disclosure or event revealed
the “truth” and, if it did, whether any “lower price”
reflected it, are questions that must be answered independent of the fact, and extent of, the “lower price”
itself.
The Ninth Circuit’s use of the magnitude of the stock
price decline to determine loss causation is further
flawed because a price reaction is not any determinant
of actual “truth” having entered the market under
Basic. To the contrary, Basic holds that all material
statements, including false ones, are presumed to
affect stock prices. See Basic, 485 U.S. at 246. Hence,
supposedly “corrective” false or mistaken disclosure
can, just like an issuer’s misrepresentation, cause a
stock price reaction. In neither instance is the reaction
indicative of any actual “truth” having entered the
market.
next week.” The panel held that this “quick and sustained” stock
price recovery refuted “the inference that the alleged concealment
of this particular fact caused any material drop in the stock price”
and “Plaintiffs have thus failed to show that they can adequately
plead loss causation.” Id. at 1198.

21
The decision below adopted and applied a loss
causation test that conflicts with controlling decisions
of this Court. Review is required to correct these
errors.
III. The Court Should Consider Overruling
Basic
1. Respondent’s loss causation theory in this fraudon-the-market case necessarily rests upon the ECMH
endorsed in Basic. It is upon that hypothesis that
respondent purported to establish the first link in the
causation chain between the alleged misstatements
and its claimed economic loss: an artificially inflated
purchase price. Although “an inflated purchase price
will not itself constitute or proximately cause the
relevant economic loss,” Dura, 544 U.S. 342, under the
loss causation theory advanced here, it is a necessary
condition. The Ninth Circuit’s decision acknowledged
this. App., infra, 11a (noting “the plaintiff’s theory
of loss causation begins with the allegation that the
defendant’s misstatements (or other fraudulent conduct)
artificially inflated the price”).
As discussed above, the Ninth Circuit’s decision
rests upon flawed factual inferences the court drew
from market fluctuations. Those inferences, mistaken
as they were, all flow from the Basic presumption and
ECMH. Those errors illustrate how lower courts misunderstand and misapply Basic and the ECMH, with
serious ramifications to publicly traded companies and
investors alike.
The discussion above in points I and II explains
why this Court should clarify how lower courts should
properly apply Basic and Dura when considering
allegations of loss causation. This raises a critical
threshold issue: Given the confusion exhibited by the

22
Ninth Circuit and other courts on this point, the Court
should consider in the alternative whether Basic
should be overruled in whole or in part.8
2. In 2014, three Justices of this Court indicated
their willingness to reconsider the ECMH endorsed
in Basic. Echoing the key insight from the dissent in
Abrams v. United States, 250 U.S. 616 (1919) (Holmes,
J.), Justice Thomas’ concurring opinion in Halliburton
II, joined by Justices Scalia and Alito, recognized
that time, scholarship and experience had combined to
undermine the foundation of the Basic presumption.
See Halliburton II, 573 U.S. at 285 (Thomas, J.,
concurring). Justice Thomas’ concurrence built upon
Amgen Inc. v. Connecticut Ret. Plans & Trust Funds,
568 U.S. 455 (2013), in which four Justices expressed
a need for the Court “to revisit Basic’s fraud-on-themarket presumption” because the ECMH underlying
“[t]he Basic decision itself is questionable.” Id. at 489
n.4 (Thomas, J., joined by Scalia and Kennedy, JJ.,
dissenting); see also id. at 482-483 (Alito, J., concurring). Scholarship, empirical evidence and recent

8

The Court may consider overruling Basic even though this
argument was only implicit in the lower courts. Overruling or
substantially modifying Basic is ‘‘not a new claim . . . but a new
argument to support what has been [petitioners’] consistent claim,”
namely that the Ninth Circuit should have affirmed the district
court’s dismissal of the action for failing to plead loss causation.
Lebron v. National R.R. Passenger Corp., 513 U.S. 374, 379
(1995); accord Citizens United v. FEC, 558 U.S. 310, 330-331
(2010) (allowing direct challenge to the Court’s precedents that
petitioner had disclaimed below because it was a ‘‘new argument”
in support of petitioner’s consistent First Amendment “claim”).
The Court retains the authority to overrule a precedent that
underlies a claim rather than “assuming a premise . . . that is
itself in doubt.” Id. at 331.

23
trends in investor behavior since Halliburton II have
made the case for overruling Basic even stronger.
3. In endorsing the ECMH, Basic invoked “considerations of fairness, public policy, and probability, as
well as judicial economy,” 485 U.S. at 245, and
“common sense.” Id. at 246. It trusted in the accuracy
of then-“[r]ecent empirical studies,” id. at 246 & n.24,
to engraft the ECMH into federal securities law. But
as Justice White pointed out in his prescient dissent
(joined by Justice O’Connor):
[T]he fraud-on-the-market theory is a mere
babe. Yet today, the Court embraces this theory
with the sweeping confidence usually reserved
for more mature legal doctrines. In so doing,
I fear that the Court’s decision may have
many adverse, unintended effects as it is
applied and interpreted in the years to come.
* * *
For while the economists’ theories which
underpin the fraud-on-the-market presumption
may have the appeal of mathematical
exactitude and scientific certainty, they are—
in the end—nothing more than theories
which may or may not prove accurate upon
further consideration.
Basic, 485 U.S. at 250-251, 254 (White, J., dissenting).
4. The majority in Halliburton II recognized that
the ECMH “may have garnered substantial criticism
since Basic,” but declined the invitation to overrule
Basic because, in the majority’s view, petitioners
“ha[d] not identified the kind of fundamental shift in
economic theory that could justify overruling a precedent on the ground that it misunderstood, or has since

24
been overtaken by, economic realities.” Halliburton II,
573 U.S. at 272. Justice Thomas disagreed, explaining
in detail that the ECMH endorsed by Basic is
inconsistent with the considerations of probability,
common sense and judicial economy that motivated it.
Halliburton II, 573 U.S. at 292 (Thomas, J., concurring). When a decision proves “unworkable or . . .
badly reasoned, ‘this Court has never felt constrained
to follow precedent.” Payne v. Tennessee, 501 U.S. 808,
827 (1991).
5. Post-Halliburton II shifts in investor behavior
have only further undermined the ECMH. Basic’s
efficient-market theory depends heavily upon “market
professionals” who “generally consider most publicly
announced material statements about companies,
thereby affecting stock prices.” Basic, 485 U.S. at 247
n.24. To an increasing extent, however, valuations for
individual stocks are influenced by inclusion in indices
and exchange traded funds. The key attribute of
indexes and ETFs is that they are vehicles for
“informationless” passive investing. See Eric Belasco,
et al., The Impact of Passive Investing on Corporate
Valuations, Managerial Finance, Vol. 38, No. 11, at
1067-1084 (2012) (“[T]he preference shift towards
index fund investing is reducing the informational
efficiency of stock prices . . . . By their nature, index
fund investors are inattentive to asset valuations . . . .”).
This rise in passive investing may both (i) “reduce the
amount of information embedded in prices”; and (ii)
“magnify any pricing differences with securities not
included in the index.” Vladyslav Sushko, et al., The
implications of passive investing for securities, BIS
Quarterly Review at 119 (Mar. 2018). More recently,
hordes of social-media-driven day traders have pushed
the stocks of companies (such as GameStop and AMC)
to valuations wholly disconnected from the real or

25
expected economic performance of the underlying
businesses. This emergent investor behavior further
undermines presumed market efficiency and the validity
of the ECMH. See, e.g., J.B. Heaton, GameStop Hype
Exposes Securities Litigation Theory’s Flaws, https://
www.law360.com/corporate/articles/1363958/gamestophype-exposes-securities-litigation-theory-s-flaws?nl_pk
=c38fa7a2-7809-4c06-97cd-17de08224057&utm_sourc
e=newsletter&utm_medium=email&utm_campaign=c
orporate (last visited Mar. 14, 2021); Annie Nova,
More bubbles, less shorting. What the GameStop
craziness could mean for the future of investing, CNBC
Personal Finance, https://www.cnbc.com/2021/02/06/
what-the-gamestop-craziness-could-mean-for-the-stoc
k-markets-future.html (last visited Feb. 7, 2021).
6. Pernicious trading strategies by short-sellers
now more than ever seek to exploit how misinformation can (at least temporarily) affect price. In
“short and distort” schemes, traders pseudonymously
author scurrilous articles creating an impression of
wrongdoing for the very purpose of deflating the stock
price (if only momentarily) to profit from their short
position in a particular security. Joshua Mitts, Short
and Distort, Columbia Law and Economics, Working
Paper No. 592, at 2 (2018) (examining 2,900 pseudonymous attack articles against mid- and large-cap
firms published on Seeking Alpha, and showing that
many were followed by stock-price declines and sharp
reversals, leading to over $20.1 billion in mispricing);
see also Joshua Mitts, “Short Sellers and Plaintiffs’
Firms: A Symbiotic Ecosystem,” The CLS Blue Sky
Blog, Oct. 14, 2020, https://clsbluesky.law.columbia.
edu/2020/10/14/short-sellers-and-plaintiffs-firms-a-sym
biotic-ecosystem/ (critiquing the majority opinion here
and describing the instant case as one “in which short
sellers and plaintiffs’ firms enjoy a kind of de facto

26
symbiosis”). As trading in modern securities markets
has become largely insensitive to value-influencing
information, and as share prices have become more
susceptible to distortions from third-party misinformation, the ECMH has become anachronistic.
7. The Basic presumption has allowed the recent
proliferation of “event-driven” securities litigation:
cases triggered by the occurrence of an adverse business “event” (such as a building fire or cyberattack)
coupled with a hindsight allegation that the company
misrepresented the likelihood of the event’s occurrence.9
Lower courts also have construed Basic to allow a socalled “price maintenance theory” of fraud-on-themarket, which allows vexatious class actions to proceed
in the absence of any front-end “price impact” from the
alleged misstatements — essentially allowing securities
fraud class actions without alleged misstatements
measurably affecting the price of a security when
made. Note, Congress, the Supreme Court, and the
Rise of Securities-Fraud Class Actions, 132 Harv. L.
Rev. 1067, 1074-1075 (2019). This and the other
abusive litigation trends will persist, and new ones
will arise, until Basic is jettisoned.
8. Basic’s inapt approach to market efficiency poses
a very real threat to judicial efficiency. Justice White
warned that “[c]onfusion and contradiction in court
rulings are inevitable when traditional legal analysis
is replaced with economic theorization by the federal
courts.” Basic, 485 U.S. at 252. As illustrated above,
the lower courts have struggled to apply Basic.
9

The instant case resembles an event-driven securities
lawsuit — except, ironically, the only “event” was the filing of
a lawsuit asserting unsubstantiated allegations. No adverse
business “event” actually occurred.

27
Because Basic’s approach to market efficiency is not
susceptible to principled application, there has inevitably been a “high level of inconsistency in the courts
regarding what makes a market sufficiently efficient to
trigger the fraud-on-the-market presumption.” Geoffrey
Rapp, Rewiring the DNA of Securities Fraud Litigation:
Amgen’s Missed Opportunity, 44 Loy. U. Chi. L.J.
1475, 1484 (2013); Waggoner v. Barclays PLC, 875
F.3d 79, 94 (2d Cir. 2017) (noting, nearly thirty years
after Basic, the Second Circuit has “repeatedly . . .
declined to adopt a particular test for market efficiency”).
9. Finally, stare decisis considerations are weaker
here than in other circumstances. ‘‘Where a decision
has been questioned by Members of the Court in later
decisions” — as Basic was questioned in Halliburton
II and Amgen — “and [has] defied consistent application by the lower courts, these factors weigh in favor
of reconsideration.” Pearson v. Callahan, 555 U.S.
223, 235 (2009) (citation omitted). Although the
principle of stare decisis counsels reluctance to revisit
errant constructions of statutes, it weighs less heavily
against correcting errant economic analysis injected
into the corpus juris to replace traditional legal
principles. Indeed, as noted by Justice Thomas, “when
[the Court] err[s] in areas of judge-made law, [the
Court] ought to presume that Congress expects [the
Court] to correct [its] own mistakes.” Halliburton II,
573 U.S. at 298. Basic grafted a judicially-created
presumption upon a judicially-created cause of action.
Such innovation is for Congress, not the judiciary, as
the Court’s more recent precedents explain. See ibid.
(citing, e.g., Stoneridge Inv. Partners, LLC v. ScientificAtlanta, Inc., 552 U.S. 148, 164 (2008)). This was, in
fact, one of Justice White’s chief objections to the
majority's decision in Basic. See Basic, 485 U.S. at
254, 256-257 (White, J., dissenting).

28
The Court should consider, in the alternative,
overruling Basic in whole or in part.
IV. The Questions Presented Are Important,
and Now Is the Time to Decide Them
1. If allowed to stand, the decision below will have
severe legal and practical consequences. By endorsing
a loss causation theory whereby the “truth” enters the
market through unsubstantiated allegations, the Ninth
Circuit has further attenuated the causal link a
securities fraud plaintiff must establish between any
misrepresentation and any economic loss. By not
demanding an additional confirming disclosure or
adverse business event before allowing a securities
fraud claim to proceed, it sanctions the filing of what
are essentially premature claims and, hence, likely
weak or meritless ones, courting the unique harm such
claims inflict. See App., infra, 30a-32a (Lee, J.,
dissenting in part).
That harm is well known. As the Court itself has
recognized, the cost and burden in defending private
securities fraud class actions imposes such enormous
pressure to settle that even “plaintiffs with weak
claims” are able “to extort settlements from innocent
companies.” Stoneridge Inv. Partners, LLC v. ScientificAtlanta, Inc., 552 U.S. 148, 162-64 (2008); see Blue
Chip Stamps v. Manor Drug Stores, 421 U.S. 723, 741
(1975) (noting the danger of permitting a securities
plaintiff “with a largely groundless claim to simply
take up the time of a number of other people, with the
right to do so representing an in terrorem increment
of the settlement value”). The PSLRA was enacted to
stem the “routine filing” of securities fraud lawsuits,
in part, by expressly imposing on private plaintiffs the
burden of pleading and proving loss causation. Dura,
544 U.S. at 345-46, 347; see also App., infra, 33a (Lee,

29
J., dissenting in part) (describing loss causation
requirement as a “critical bulwark against frivolous
securities fraud lawsuits”). Efforts at reform notwithstanding, the tremendous pressure to settle even weak
or meritless securities fraud class actions persists.
This is most clearly exposed by the astonishing fact
that, since 1996, more than 5,200 securities fraud
class actions have been filed in federal court, and yet
defendants have taken fewer than 25 — one half of one
percent — to trial. See Kevin LaCroix, Rare Securities
Class Action Lawsuit Trial Results in Partial Verdict
for Plaintiffs, D&O Diary (Feb. 5, 2019) <tinyurl.com/
raresecuritiestrial>. As of 2018, the median cost of a
securities class action settlement was $13 million.
App., infra, 33a (Lee, J., dissenting) (citing Chubb,
From Nuisance to Menace: The Rising Tide of Securities
Class Action Litigation (June 2019), https://bit.ly/
3cvbIx4).
The Ninth Circuit’s misguided and lax loss causation standard facilitates weak or meritless securities
fraud class actions. A plaintiff in the Ninth Circuit
can now allege the “truth” entered the market and
survive dismissal by pointing to mere allegations of
the issuer’s misconduct. App., infra, 17a-18a. This
encourages the filing of claims resembling those that
comprise the recently observed trend of “event-driven
securities litigation,” whereby securities fraud actions
are reflexively filed in the wake of an adverse company
event (such as oil rig explosion or security data breach)
on the theory that, in hindsight, the company underplayed the risk the event would occur. See John C.
Coffee, Jr., The Changing Character of Securities
Litigation in 2019: It’s Time to Draw Some Distinctions,
CLS Blue Sky Blog (Jan. 22, 2019). These actions
effectively (and wrongly) presuppose falsity and loss
causation from the event’s occurrence alone. They are

30
rapidly filed with little or no investigation to force a
settlement regardless of the underlying merits. See
U.S. Chamber Institute for Legal Reform, A Rising
Threat: The New Class Action Racket That Harms
Investors and the Economy 12-13 (2018). This trend
harkens back to a pre-PSLRA era. Id. at 13.
2. But the decision below heralds an even more
troubling development, for it allows unproven public
allegation that an “event” occurred (such as, here,
possible regulatory violations alleged by Erhart) to
alone serve as a revelation of the “truth” for loss
causation purposes even when the alleged event never
actually occurred. In other words, it authorizes
“nonevent”-driven securities litigation by which a
securities fraud class action advances on what is or
may turn out to be nothing. The Ninth Circuit’s
willingness to treat another lawsuit’s allegations as a
“truth”-conveying disclosure prompted Judge Lee in
his dissent to wonder aloud: “[W]hat if it turns out
that Erhart’s allegations in his lawsuit are bunk?
What if he is mistaken?” App., infra, 31a (Lee, J.
dissenting in part). The respondent in this case did
not wait to find out. The Ninth Circuit’s decision
thwarts the PSLRA by promoting the very type of
rapid, reflexive securities fraud filings the PSLRA was
intended to deter. See H.R. Conf. Rep. 104-369, at 31,
41, reprinted in 1995 U.S.C.C.A.N. 730, 740; Tellabs,
Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 320
(2007).
Plaintiffs in “nonevent”-driven securities litigation
will work backwards from a stock price drop following
disputed allegations of company wrongdoing and assert,
just as the respondent does here, that the allegations
corrected some earlier generic compliance or policyrelated statement. For example, respondent asserts

31
Erhart’s allegations that BofI’s conduct violated certain laws corrected the statement “[w]e have made
significant investments in our overall compliance infrastructure over the past several quarters, including
BSA [Bank Secrecy Act] and AML [anti-money
laundering] compliance.” App., infra, 6a. Because all
companies make similar generic statements regarding
their legal compliance efforts, securities fraud plaintiffs will almost always manage to find one they can
tenuously connect to an allegation that the company
failed to comply with law. In this manner, any public
corporate controversy coinciding with a stock price
decline can be recharacterized as securities fraud. Not
only does this “convert rule 10b-5 into a scheme of
investor’s insurance,” Dura, 544 U.S. at 345 (citation
omitted), it effectively converts allegations of corporate
mismanagement into securities fraud, a practice the
Court has long rejected. See Santa Fe Indus., Inc. v.
Green, 430 U.S. 462, 479 (1977).
3. The Ninth Circuit’s decision also challenges any
normal understanding of what it means for “truth” to
enter the market. Under the Ninth Circuit’s approach,
a securities fraud plaintiff at no stage in the litigation
is required to substantiate the public allegations by
which the market supposedly learned the “truth.”
App., infra, 16a (stating “the relevant question for loss
causation purposes is whether the market reasonably
perceived Erhart’s allegations as true”). Hence, it will
be no defense to the loss causation element for a
defendant to show that the public misconduct allegations were false, or even fabricated.10
10

The prospect that a defendant might vindicate itself at
summary judgment or trial by defeating an element other
than loss causation, such as falsity, provides little consolation.
“[S]ecurities fraud trials are virtually extinct.” App., infra, 33a

32
4. Given the Ninth Circuit’s error, and the harmful
legal and practical consequences that will certainly
flow from it, the resolution of the loss causation
question here (which has divided the courts of appeals)
is no doubt of critical importance. The Ninth Circuit
is an influential circuit in the securities class action
arena. In 2020, more securities class action cases were
filed in the Ninth Circuit than in any other circuit. See
Cornerstone Research, Securities Class Action Filings:
2020 Year in Review at 33 (2021), available at https://
www.cornerstone.com/Publications/Reports/SecuritiesClass-Action-Filings-2020-Year-in-Review.pdf. In addition, although the Second Circuit has yet to expressly
address whether allegations alone can reveal the
“truth,” it has recently issued opinions in two cases
suggesting it would side with the Ninth Circuit. See
Arkansas Teacher Ret. Sys. v. Goldman Sachs Grp.,
Inc., 955 F.3d 254 (2d Cir.) (describing SEC complaint
as revealing “hard evidence”), cert. granted, No. 20222, ___ U.S. ___ (Dec. 11, 2020); Puddu v. 6D Global
Techs., Inc., 742 Fed. Appx. 553 (2d Cir. Aug. 2, 2018)
(treating complaint’s allegations, standing alone, as
revealing true information). Hence, this case presents
an opportunity not only to rectify the Ninth and Sixth
Circuits’ error, but to forestall a similar erosion of
the loss causation element in the Second and other
Circuits.
5. By using a security’s efficient market price reaction as a factor in determining whether a plaintiff has
pleaded loss causation, the Ninth Circuit has further
undermined the PSLRA. After all, a significant price
decline is a sine qua non in just about every securities
(Lee, J., dissenting in part). Most securities class actions never
reach summary judgment given discovery costs and inordinate
settlement pressure, particularly if a class is certified.

33
fraud lawsuit. And such a decline following corporate
misconduct allegations is particularly unremarkable
as such allegations are invariably accompanied by an
actual negative event—a lawsuit against the company
with its attendant costs, disruption and public relations impact. The Ninth Circuit’s stock-price-decline
test for loss causation, just like the Ninth Circuit’s
price-inflation test rejected by Dura, renders pleading
and proving the essential element of loss causation a
mere perfunctory exercise.
Fifteen years have passed since Dura with no
further guidance from the Court on how to determine
if “the truth became known” to the efficient market.
Dura, 544 U.S. at 347. This case is an optimal vehicle
for the Court to provide that guidance, as it cleanly
presents outcome-determinative legal questions. No
further developments in the courts of appeals on any
issue is needed to resolve the questions presented here.

34
CONCLUSION
Petitioners respectfully request that the Court grant
their petition for a writ of certiorari.
Respectfully submitted,
POLLY TOWILL
JOHN M. LANDRY
SHEPPARD, MULLIN,
RICHTER & HAMPTON LLP
333 South Hope Street
43d Floor
Los Angeles, CA 90071
(213) 620-1780
ESHEL BAR-ADON
AXOS FINANCIAL, INC.
4350 La Jolla Village Drive
Suite 140
San Diego, CA 92122
(858) 350-6200

JOHN P. STIGI III
Counsel of Record
SHEPPARD, MULLIN,
RICHTER & HAMPTON LLP
1901 Avenue of the Stars
16th Floor
Los Angeles, CA 90067
(310) 288-3700
jstigi@sheppardmullin.com

Counsel for Petitioners
March 26, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 18-55415
D.C. Nos.
3:15-cv-02324-GPC-KSC
3:15-cv-02486-GPC-KSC
————
IN RE BOFI HOLDING, INC. SECURITIES LITIGATION,
————
HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Plaintiff-Appellant,
v.
BOFI HOLDING, INC.; GREGORY GARRABRANTS;
ANDREW J. MICHELETTI; PAUL J. GRINBERG;
NICHOLAS A. MOSICH; JAMES S. ARGALAS,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Southern District of California
Gonzalo P. Curiel, District Judge, Presiding
Argued and Submitted January 7, 2020
Pasadena, California
Filed October 8, 2020
————
OPINION
————

2a
Before: Paul J. Watford, Mark J. Bennett, and
Kenneth K. Lee, Circuit Judges.
Opinion by Judge Watford;
Partial Concurrence and Partial Dissent by Judge Lee
————
SUMMARY*
————
Securities Fraud
The panel reversed the district court’s judgment
dismissing a securities fraud class action brought under
§ 10(b) of the Securities Exchange Act and Rule 10b-5
and remanded for further proceedings.
Shareholders alleged that executives of Bofl Holding,
Inc., committed securities fraud by falsely portraying
the banking company as a safer investment than it
actually was. In particular, the shareholders alleged
that defendants made false or misleading statements
touting the bank’s conservative loan underwriting
standards, its effective system of internal controls, and
its robust compliance structure. The district court
concluded that the shareholders adequately pleaded
the first five elements of their claim, at least as to
some of the challenged misstatements, but failed to
adequately plead loss causation, meaning a causal
connection between defendants’ fraudulent conduct
and the shareholders’ economic loss.
The panel held that one way to prove loss causation
in a fraud-on-the-market case is to show that the
defendant’s fraud was revealed to the market through
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.

3a
one or more “corrective disclosures” and that the
company’s stock price declined as a result. In Part
III.B., the panel agreed with the district court that a
series of blog posts offering negative reports about the
company’s operations did not qualify as a corrective
disclosure. The panel concluded that even if the posts
disclosed information that the market was not previously aware of, it was not plausible that the market
reasonably perceived the posts as revealing the falsity
of BofI’s prior misstatements, thereby causing the
drops in BofI’s stock price on the days the posts
appeared. In Part III.A., however, the panel held that
a whistleblower lawsuit filed by a former company
insider was a potential corrective disclosure. The panel
joined the Sixth Circuit in rejecting a categorical rule
that allegations in a lawsuit, standing alone, can never
qualify as a corrective disclosure.
Finally, the panel agreed with the district court that
the shareholders failed to plausibly allege the falsity
of statements concerning government and regulatory
investigations.
Judge Lee concurred in judgment in Part III.B. and
dissented as to Part III.A. Judge Lee wrote that he agreed
with much of the analysis in the majority’s opinion but
would require additional external confirmation of fraud
allegations in a whistleblower lawsuit for them to
count as a corrective disclosure. Accordingly, he dissented
from the majority’s holding that plausible insider
allegations, standing alone, can qualify as a corrective
disclosure.
COUNSEL
Michael J. Miarmi (argued) and Daniel P. Chiplock,
Lieff Cabraser Heimann & Bernstein LLP, New York,
New York; Richard M. Heimann, Katherine C. Lubin,

4a
and Michael K. Sheen, Lieff Cabraser Heimann &
Bernstein LLP, San Francisco, California; for
Plaintiff-Appellant.
John P. Stigi III (argued), Sheppard Mullin Richter &
Hampton LLP, Los Angeles, California; Polly Towill,
Sheppard Mullin Richter & Hampton LLP, Los
Angeles, California; for Defendants-Appellees.
OPINION
WATFORD, Circuit Judge:
To recover damages in a private securities fraud
action, the plaintiff must establish a causal connection
between the defendant’s fraudulent conduct and the
plaintiff’s economic loss—an element known as loss
causation. One way to prove loss causation is to show
that the defendant’s fraud was revealed to the market
through one or more “corrective disclosures” and that
the company’s stock price declined as a result. In this
case, the plaintiff alleged loss causation by relying on
two corrective disclosures: a whistleblower lawsuit
filed by a former company insider and a series of blog
posts offering negative reports about the company’s
operations. The district court dismissed the case after
concluding that neither the whistleblower lawsuit nor
the blog posts could qualify as corrective disclosures.
We agree as to the blog posts but reach a different
conclusion with respect to the whistleblower lawsuit.
I
The company sued in this case, Bofl Holding, Inc., is
the holding company for Bofl Federal Bank, a federally
chartered savings association. (We refer to both entities
collectively as Bofl, although they now operate under
a different corporate name.) In the years before this
lawsuit was filed, Bofl reported strong earnings growth

5a
and its stock price rose handsomely. Between August
2015 and February 2016, however, the price of the
stock dropped by more than 47%. Bofl shareholders
filed multiple securities fraud suits against the company and several of its officers and directors. The suits
were consolidated into this class action, brought on
behalf of all Bofl shareholders who purchased publicly
traded shares between September 4, 2013, and
February 3, 2016. The district court appointed the
Houston Municipal Employees Pension System as lead
plaintiff to represent the class.
The shareholders allege that Bofl executives committed securities fraud by falsely portraying the company
as a safer investment than it actually was. In particular,
as relevant for this appeal, the shareholders allege
that defendants made false or misleading statements
touting the bank’s conservative loan underwriting
standards, its effective system of internal controls, and
its robust compliance infrastructure.
The shareholders bring this action under § 10(b) of
the Securities Exchange Act of 1934, 15 U.S.C. § 78j(b),
and Rule 10b-5, 17 C.F.R. § 240.10b-5. To state a
claim, they must adequately plead six elements: (1) a
material misrepresentation or omission; (2) made with
scienter; (3) in connection with the purchase or sale
of a security; (4) reliance on the misrepresentation or
omission; (5) economic loss; and (6) loss causation.
Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S.
258, 267 (2014). In a series of rulings preceding the
order on appeal, the district court held that the shareholders have adequately alleged the first five elements
of their claim, at least as to some of the challenged
misstatements. In the order challenged on appeal,
however, the court ultimately dismissed the operative
Third Amended Complaint on the basis that the

6a
shareholders failed to adequately plead the last element,
loss causation. We summarize the court’s rulings below.
As to the first element, falsity, the district court
dismissed many of the alleged misstatements as nonactionable. But the court ruled that the shareholders
have adequately pleaded falsity with respect to two
categories of misstatements, concerning (1) the bank’s
underwriting standards and (2) its system of internal
controls and compliance infrastructure. Representative
of the misstatements regarding underwriting standards
are the following:
• “We continue to maintain our conservative
underwriting criteria and have not loosened
credit quality to enhance yields or increase loan
volumes.”
• “We continue to have an unwavering focus on
credit quality of the bank and have not sacrificed credit quality to increase origination.”
• “[W]e continue to originate only full documentation, high credit quality, low loan-to-value,
jumbo single-family mortgages and have not
reduced our loan rates for these products.”
The court also found actionable two misstatements
regarding internal controls and compliance infrastructure:
• “We have made significant investments in our
overall compliance infrastructure over the past
several quarters, including BSA [Bank Secrecy
Act] and AML [anti-money laundering] compliance.”
• “We have spent a significant amount of money
on BSA/AML compliance upgrades and new

7a
systems and new personnel. We have also been
beefing up our compliance teams.”1
The shareholders predicated their showing of falsity
on allegations attributed to confidential witnesses who
used to work at Bofl. The district court concluded that
the witnesses’ allegations were reliable and based on
personal knowledge, as our circuit’s case law requires.
See Zucco Partners, LLC v. Digimarc Corp., 552 F.3d
981, 995 (9th Cir. 2009). Assuming the witnesses’ allegations were true, the court found “ample evidence,”
with respect to underwriting standards, to suggest that
“Bofl was not adhering to high credit quality standards
and that it had, in fact, begun to ‘sacrifice credit quality to increase origination.’” Likewise, with respect to
internal controls and compliance infrastructure, the
witnesses’ allegations plausibly suggested that “Bofl
had not adequately staffed its BSA and AML compliance along with other internal control departments.”
As to the second element, scienter, the district court
again ruled partially in the shareholders’ favor. The
shareholders were required to allege facts giving rise
to a strong inference that the defendants acted “either
intentionally or with deliberate recklessness.” In re
Verifone Holdings, Inc. Securities Litigation, 704 F.3d
694, 698, 701 (9th Cir. 2012); see also 15 U.S.C. § 78u4(b)(2). The court held that the shareholders failed to
1

In light of its ruling on loss causation, the district court
declined to address whether certain alleged misstatements are
actionable. On remand, the district court will need to determine which
of the remaining misstatements are actionable, but it appears
that at least some of them are, such as Bofl’s assertions that its
“disclosure controls and procedures were effective,” and that “[a]ll
significant deficiencies and material weaknesses in the design or
operation of internal control over financial reporting” had been
disclosed.

8a
satisfy this standard for four of the five individual
defendants, but concluded that the allegations of
scienter were adequate as to Bofl’s Chief Executive
Officer, Gregory Garrabrants, and thus as to the company as well. The court based this conclusion on the
confidential witness allegations mentioned above.
Bofl did not contest that the shareholders satisfied
the third, fourth, and fifth elements of their Rule 10b5 claim. The alleged misstatements were plainly made
in connection with the purchase or sale of a security,
as they were made in Bofl’s public filings and on
earnings calls with investors. To establish reliance,
the shareholders invoked the “fraud-on-the-market”
presumption, which is premised on the theory that
“the price of a security traded in an efficient market
will reflect all publicly available information about a
company,” including materially false or misleading
statements. Amgen Inc. v. Connecticut Retirement Plans
and Trust Funds, 568 U.S. 455, 458, 461-62 (2013). As
a result, a plaintiff who purchases shares at an
inflated price is presumed to have done so in reliance
on any material misstatements reflected in the stock’s
price. Id. at 462. And with respect to economic loss, the
shareholders indisputably lost money on their investment when Bofl’s stock lost nearly half its value by the
end of the class period.
That leaves the sixth and final element, loss
causation. After the district court issued the rulings
described above, Bofl filed a motion for judgment on
the pleadings, in which it argued for the first time that
the shareholders had not adequately alleged loss
causation. The district court agreed and dismissed the
shareholders’ Second Amended Complaint with leave
to amend.

9a
The shareholders filed the operative Third Amended
Complaint in response to the district court’s ruling. To
establish loss causation, the complaint relies on two
corrective disclosures. The shareholders allege that
these disclosures revealed the falsity of the company’s
statements regarding underwriting standards, internal
controls, and compliance infrastructure and that the
market reacted by driving down the price of Bofl’s stock.
The first corrective disclosure is a whistleblower
lawsuit filed against Bofl by Charles Erhart, a former
mid-level auditor at the company, on October 13, 2015.
See Erhart v. BofI Holding lnc., No. 15-cv-2287 (S.D.
Cal. Oct. 13, 2015). Erhart’s suit—the details of which
were disclosed in a New York Times article published
that same day—alleged rampant and egregious wrongdoing at the company, including that Bofl had doctored
reports submitted to the bank’s primary regulator,
the Office of the Comptroller of the Currency (OCC),
and that Bofl had made high-risk and illegal loans to
foreign nationals. Erhart also alleged that his attempts
to raise these compliance issues within the company
led to retaliation and eventually to his termination. By
the close of trading the next day, the price of Bofl’s
shares had fallen by 30.2% on extremely high trading
volume.
The second corrective disclosure consists of a group
of eight blog posts published by anonymous authors on
Seeking Alpha, a crowd-sourced online resource for
investors, between August 2015 and February 2016.
The blog posts argued that things at Bofl were not as
rosy as they seemed. The posts’ specific charges varied,
ranging from allegations of potential regulatory violations to evidence of risky loan origination partnerships.
Each post stated that it was based on information
derived from publicly available sources and that the

10a
author was “short” Bofl. According to the complaint,
Bofl’s stock price fell on each day that one of the blog
posts appeared.
Bofl filed a motion to dismiss the Third Amended
Complaint, and in the ruling now on appeal, the
district court held that the shareholders failed to plausibly allege loss causation. The court reasoned that,
because the Erhart lawsuit contained only “unconfirmed
accusations of fraud,” it could not have disclosed to the
market that Bofl’s alleged misstatements were actually
false. To qualify as a corrective disclosure, the court
held, the Erhart lawsuit had to be followed by “a
subsequent confirmation” of the fraud, which the
shareholders have not alleged.
As for the Seeking Alpha blog posts, the district
court concluded that they cannot serve as corrective
disclosures because each of them relies entirely on
publicly available information. In the court’s view, the
blog posts could not have “revealed” anything to the
market because the information they disclosed was
presumably already known to market participants
and thus reflected in Bofl’s stock price.
Having identified fatal deficiencies in the shareholders’ loss causation allegations, the district court
dismissed the action with prejudice after concluding
that yet another opportunity to amend the complaint
was unwarranted.
II
We agree with the district court that the shareholders have adequately alleged falsity and scienter
with respect to misstatements concerning Bofl’s underwriting standards, internal controls, and compliance
infrastructure. The dispositive issue on appeal is
whether the shareholders have also adequately alleged

11a
loss causation. Before tackling that question, we begin
with a brief overview of the loss causation requirement, with the aim of illuminating the function this
element serves in a private securities fraud action.
Like any other tort plaintiff who seeks to recover
damages, a plaintiff in a securities fraud suit must
plead and ultimately prove that the defendant’s wrongful conduct caused the plaintiff’s injury. Congress
codified that requirement in the Private Securities
Litigation Reform Act. Under the heading “Loss
causation,” the Act provides: “In any private action
arising under this chapter, the plaintiff shall have
the burden of proving that the act or omission of the
defendant alleged to violate this chapter caused the
loss for which the plaintiff seeks to recover damages.”
15 U.S.C. § 78u-4(b)(4). Courts have likened this
requirement to the showing of proximate causation
required in ordinary tort actions. See, e.g., Dura
Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 343-46
(2005); Lloyd v. CVB Financial Corp., 811 F.3d 1200,
1210 (9th Cir. 2016).
In fraud-on-the-market cases like this one, the
plaintiff’s theory of loss causation begins with the allegation that the defendant’s misstatements (or other
fraudulent conduct) artificially inflated the price at
which the plaintiff purchased her shares—meaning
the price was higher than it would have been had the
false statements not been made. Merely purchasing
shares at an inflated price, however, does not cause
an investor to suffer economic loss as a result of the
fraud. Dura Pharmaceuticals, 544 U.S. at 342. If the
defendant’s fraud remains concealed, the price will
usually remain inflated, allowing the plaintiff to sell
her shares and recoup the inflationary component

12a
she paid. See id.; Find What Investor Group v.
FindWhat.com, 658 F.3d 1282, 1315 (11th Cir. 2011).
To establish loss causation in a fraud-on-the-market
case, the plaintiff must show that after purchasing
her shares and before selling, the following occurred:
(1) “the truth became known,” and (2) the revelation
caused the fraud-induced inflation in the stock’s price
to be reduced or eliminated. Dura Pharmaceuticals,
544 U.S. at 347; see Find What, 658 F.3d at 1310. At
that point, the plaintiff has suffered an economic loss
caused by the misstatements because she is no longer
able to recoup in the marketplace the inflationary
component of the price she originally paid. Find What,
658 F.3d at 1311; Madge S. Thorsen et al., Rediscovering
the Economics of Loss Causation, 6 J. Bus. & Sec. L.
93, 98 (2006).
The most common way for plaintiffs to prove that
“the truth became known” is to identify one or more
corrective disclosures. See Mineworkers’ Pension Scheme
v. First Solar Inc., 881 F.3d 750, 753-54 (9th Cir. 2018)
(per curiam); Lloyd, 811 F.3d at 1209. A corrective
disclosure occurs when “information correcting the
misstatement or omission that is the basis for the
action is disseminated to the market.” 15 U.S.C. § 78u4(e)(1) (using that event to establish a statutory cap on
damages).
Although deciding what qualifies as a corrective
disclosure has proved more challenging than might
have been expected, a few basic ground rules can be
sketched out. First, a corrective disclosure need not
consist of an admission of fraud by the defendant or a
formal finding of fraud by a government agency. See
Metzler Investment GMBH v. Corinthian Colleges,
Inc., 540 F.3d 1049, 1064 (9th Cir. 2008). A corrective
disclosure can instead come from any source, including

13a
knowledgeable third parties such as whistleblowers,
analysts, or investigative reporters. Norfolk County
Retirement System v. Community Health Systems,
Inc., 877 F.3d 687, 695 (6th Cir. 2017); Public
Employees’ Retirement System of Mississippi v. Amedisys,
Inc., 769 F.3d 313, 322 (5th Cir. 2014). Second, a
corrective disclosure need not reveal the full scope of
the defendant’s fraud in one fell swoop; the true facts
concealed by the defendant’s misstatements may be
revealed over time through a series of partial disclosures. Amedisys, 769 F.3d at 322-24; In re Williams
Securities Litigation—WCG Subclass, 558 F.3d 1130,
1137-38 (10th Cir. 2009). Third, to be corrective, a
disclosure “need not precisely mirror the earlier
misrepresentation.” Williams, 558 F.3d at 1140. It is
enough if the disclosure reveals new facts that, taken
as true, render some aspect of the defendant’s prior
statements false or misleading. Amedisys, 769 F.3d at
321-22.
Even if the true facts concealed by the fraud are
revealed to the market, the plaintiff must still show
that the disclosure of the truth caused the company’s
stock price to decline. For a subsequent decline in price
could be attributable to factors unrelated to the fraud,
such as a change in economic circumstances or investor
expectations. Dura Pharmaceuticals, 544 U.S. at 343.
The securities laws do not protect against ordinary
investment losses of that sort. See id. at 345. We
have explained that loss causation does not require a
showing “that a misrepresentation was the sole reason
for the investment’s decline in value.” In re Daou
Systems, Inc., 411 F.3d 1006, 1025 (9th Cir. 2005).
Rather, “as long as the misrepresentation is one
substantial cause of the investment’s decline in value,
other contributing forces will not bar recovery under
the loss causation requirement.” Id. The determination

14a
of whether there is a causal link includes a temporal
component—a disclosure followed by an immediate
drop in stock price is more likely to have caused the
decline—but timing is not dispositive. See In re Gilead
Sciences Securities Litigation, 536 F.3d 1049, 1058
(9th Cir. 2008) (“A limited temporal gap between the
time a misrepresentation is publicly revealed and the
subsequent decline in stock value does not render a
plaintiff’s theory of loss causation per se implausible.”).
III
With that background in mind, we turn to the
specific corrective disclosures at issue in this case. We
address the Erhart lawsuit first, followed by the
Seeking Alpha blog posts.
A
As discussed above, to prove loss causation by relying on one or more corrective disclosures, a plaintiff
must show that: (1) a corrective disclosure revealed, in
whole or in part, the truth concealed by the defendant’s misstatements; and (2) disclosure of the truth
caused the company’s stock price to decline and the
inflation attributable to the misstatements to dissipate.
At the pleading stage, the plaintiff’s task is to allege
with particularity facts “plausibly suggesting” that
both showings can be made. Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 557 (2007); see Oregon Public
Employees Retirement Fund v. Apollo Group, Inc., 774
F.3d 598, 605 (9th Cir. 2014) (holding that allegations
of loss causation must satisfy Federal Rule of Civil
Procedure 9(b)’s heightened “particularity” requirement).
The shareholders pleaded facts with particularity
that plausibly suggest they can make the first showing. The allegations of egregious wrongdoing in the
Erhart lawsuit, if accepted as true, unquestionably

15a
revealed to the market that at least some of Bofl’s
alleged misstatements were false.2 For example,
Erhart recounted an instance in which he relayed to
his superiors a third-party vendor’s report on Bofl’s
operations. Erhart alleged that he personally prepared
a memorandum summarizing the vendor’s findings,
which identified roughly 30% of Bofl’s customers as
“bad,” meaning the customers had red flags such as
suspiciously high cash balances, social security numbers
that did not match any public records, and, in one
instance, the social security number of a dead person.
Erhart further alleged that when he gave the list to
his superior, Senior Vice President John Tolla, Tolla
demanded that the audit committee alter the list and
give the altered version to the OCC. Erhart also claims
that his thorough work and his attempts to report
potential compliance violations earned him retaliation
rather than praise. These and other similar allegations, if true, render Bofl’s prior assertions about the
strength of its underwriting standards, internal controls,
and compliance infrastructure false or misleading.3
As to the second showing, the shareholders allege
that Bofl’s stock price fell by more than 30% on
extremely high trading volume immediately after the
2

We take judicial notice of the contents of the complaint filed
in Erhart v. Bofl Holding Inc., No. 15-cv-2287 (S.D. Cal. Oct. 13,
2015), but not of the truth of the allegations asserted therein,
which Bofl vigorously contests. See Lee v. City of Los Angeles, 250
F.3d 668, 689-90 (9th Cir. 2001).
3

The district court held in its order dismissing the Second
Amended Complaint that none of the allegations in the Erhart
lawsuit relate back to the subject matter of the specific misstatements the court had found actionable. We disagree with that
ruling. As noted above, a corrective disclosure need not be a
mirror image of the prior misstatement. See Williams, 558 F.3d
at 1140.

16a
market learned of Erhart’s allegations. The shareholders have plausibly alleged that this drop constituted
a dissipation of the inflation attributable to Bofl’s
misstatements instead of a reaction to some other
negative news unrelated to the alleged fraud.
To plead loss causation here, the shareholders did
not have to establish that the allegations in Erhart’s
lawsuit are in fact true. Falsity and loss causation are
separate elements of a Rule 10b-5 claim. The shareholders adequately alleged that Bofl’s misstatements
were false through the allegations attributed to
confidential witnesses. In analyzing loss causation, we
therefore begin with the premise that Bofl’s misstatements were false and ask whether the market at some
point learned of their falsity—through whatever means.
Viewed through that prism, the relevant question for
loss causation purposes is whether the market
reasonably perceived Erhart’s allegations as true and
acted upon them accordingly. See Norfolk County, 877
F.3d at 696 (inquiry when evaluating an alleged
corrective disclosure is “whether the market could
have perceived it as true”). If the market recalibrated
Bofl’s stock price on the assumption that Erhart’s
allegations are true—and thus that Bofl’s prior misstatements were false—then the drop in Bofl’s stock price
represented dissipation of inflation rather than a
reaction to other non-fraud-related news.
The shareholders alleged facts with particularity
that plausibly suggest the market perceived Erhart’s
allegations as credible and acted upon them on the
assumption that they were true. Erhart’s descriptions
of wrongdoing are highly detailed and specific, and
they are based on firsthand knowledge that he could
reasonably be expected to possess by virtue of his
position as a mid-level auditor at the company. True,

17a
Erhart’s motivations for coming forward may not have
been entirely pure, as he lodged his allegations in a
lawsuit seeking money from Bofl. But that is just one
factor among many that market participants would
have weighed in deciding how much credence his
claims deserved. The fact that Bofl’s stock price
plunged by more than 30% on extremely high trading
volume immediately after the market learned of
Erhart’s allegations bolsters the inference that the
market regarded his allegations as credible. A price
drop of that magnitude would not be expected in
response to whistleblower allegations perceived as
unworthy of belief, and the drop is not readily
attributable to non-fraud-related factors that might
have moved Bofl’s stock price that day.
The district court nonetheless held that allegations
in a lawsuit, standing alone, can never qualify as a
corrective disclosure because they are just that—
allegations, as opposed to “truth.” The court concluded
that, to adequately plead loss causation, the shareholders had to identify an additional disclosure that
confirmed the truth of Erhart’s allegations.
We join the Sixth Circuit in rejecting any such
categorical rule. Norfolk County, 877 F.3d at 696.
To be sure, allegations in a lawsuit do not provide
definitive confirmation that fraud occurred. But short
of an admission by the defendant or a formal finding
of fraud—neither of which is required, see Amedisys,
769 F.3d at 324-25; Metzler, 540 F.3d at 1064—any
corrective disclosure will necessarily take the form of
contestable allegations of wrongdoing. As the Sixth
Circuit observed, “every representation of fact is in a
sense an allegation, whether made in a complaint,
newspaper report, press release, or under oath in a
courtroom.” Norfolk County, 877 F.3d at 696. What

18a
matters for loss causation purposes “is that some
[representations] are more credible than others and
thus more likely to be acted upon as truth.” Id. If the
market treats allegations in a lawsuit as sufficiently
credible to be acted upon as truth, and the inflation in
the stock price attributable to the defendant’s misstatements is dissipated as a result, then the allegations
can serve as a corrective disclosure. The plaintiff must,
of course, prove that the defendant’s misstatements
were false, but that can be done through proof other
than the corrective disclosure itself.
The two cases on which the district court relied most
heavily are not to the contrary. In Loos v. Immersion
Corp., 762 F.3d 880 (9th Cir. 2014), the defendant
company announced that it was conducting “an
internal investigation into certain previous revenue
transactions in its Medical line of business.” Id. at 885
(quoting the company’s press release). We held that
the plaintiff could not rest his theory of loss causation
on the announcement of this investigation standing
alone. Quoting the Eleventh Circuit’s decision in Meyer
v. Greene, 710 F.3d 1189 (11th Cir. 2013), we noted
that “[t]he announcement of an investigation reveals
just that—an investigation—and nothing more.” Loos,
762 F.3d at 890. Such an announcement does not
reveal to the market any facts that could call into
question the veracity of the company’s prior statements; all the market could react to was “speculation”
about “what the investigation will ultimately reveal.”
Id.
Our case presents a different situation. Erhart’s
lawsuit disclosed facts that, if true, rendered false
Bofl’s prior statements about its underwriting standards, internal controls, and compliance infrastructure.
No speculation on that score was required.

19a
The second case on which the district court relied,
Curry v. Yelp Inc., 875 F.3d 1219 (9th Cir. 2017), is
also distinguishable. There, the plaintiffs accused Yelp
of falsely representing that the reviews it posted were
authentic and independent. Id. at 1222. The plaintiffs
alleged that the falsity of this representation was
revealed to the market when the Federal Trade
Commission disclosed some 2,000 complaints the
agency had received “from businesses claiming that
Yelp had manipulated reviews of their services” in
various ways. Id.
We rejected the plaintiffs’ loss causation allegations
as inadequate. Id. at 1225. Critically for our purposes,
the customers who filed complaints in Curry were
outsiders who lacked any firsthand knowledge of Yelp’s
practices. Thus, they could not attest to whether Yelp
was actually engaged in manipulating reviews, nor to
whether the reviews the company posted were authentic and independent. See id. at 1223. We refused to
allow the plaintiffs to allege loss causation “merely by
resting on a number of customer complaints and asserting that where there is smoke, there must be fire.” Id.
at 1225.
Here, by contrast, Erhart is a former insider of the
company who had personal knowledge of the facts he
alleged. Those facts revealed that a number of BofI’s
alleged misstatements were false. If the market regarded
his factual allegations as credible and acted upon them
on the assumption that they were true, as the shareholders have plausibly alleged here, Erhart’s allegations
established fire and not just smoke.4

4

BofI contends that the shareholders cannot plead loss causation because they cannot plausibly allege that the bank ever
suffered an adverse fmancial event, such as losses from its loan

20a
One final point bears mentioning. In ruling against
the shareholders, the district court emphasized that
a plaintiff in a securities fraud action must plead
loss causation “with particularity” under Rule 9(b).
See Apollo Group, 774 F.3d at 605. When applied
to allegations of loss causation, however, Rule 9(b)’s
particularity requirement usually adds little to the
plaintiff’s burden. The plaintiff must plausibly allege
a causal connection between the defendant’s misstatements and the plaintiff’s economic loss, and to succeed
in doing so the plaintiff will always need to provide
enough factual content to give the defendant “some
indication of the loss and the causal connection that
the plaintiff has in mind.” Dura Pharmaceuticals, 544
U.S. at 347. That effort “should not prove burdensome,” id., for even under Rule 9(b) the plaintiff’s
allegations will suffice so long as they give the
defendant “notice of plaintiffs’ loss causation theory”
and provide the court “some assurance that the theory
has a basis in fact.” Berson v. Applied Signal Technology,
Inc., 527 F.3d 982, 989-90 (9th Cir. 2008). The
shareholders pleaded loss causation here with
sufficient particularity to accomplish those twin aims.

portfolio or a spike in its reserves. But this misconstrues the
significance of BofI’s alleged misstatements. According to the shareholders, BofI misrepresented itself as a safe investment when in
fact it was far riskier. The shareholders contend that, before the
corrective disclosures, the price of BofI’s stock was inflated by the
market’s belief that the company’s statements were true, and
that the price declined when the market learned that Bofl’s
statements were false. On this account, the shareholders suffered
an economic loss caused by the misstatements because they
purchased their shares at an inflated price and are now unable to
recoup the inflationary component in the market. That remains
true regardless of whether the risks concealed by BofI’s misstatements ever materialized and harmed the bank’s bottom line.

21a
B
We turn next to the Seeking Alpha blog posts. We
agree with the district court that the shareholders
failed to plausibly allege that these posts constituted
corrective disclosures, although we disagree somewhat
with the district court’s rationale.
As noted earlier, each of the blog posts asserts that
the information it discloses was derived from publicly
available sources. Because this is a fraud-on-themarket case, that assertion makes it more difficult for
the shareholders to rely on the posts as corrective
disclosures. Bofl’s stock is deemed to trade in an
efficient market in which all publicly available information about the company, both positive and negative,
is quickly incorporated into the stock price. See
Amgen, 568 U.S. at 461-62. So its stock price should
already reflect whatever public information a blog post
might be based upon. A corrective disclosure, though,
must by definition reveal new information to the market
that has not yet been incorporated into the price.
To rely on a corrective disclosure that is based on
publicly available information, a plaintiff must plead
with particularity facts plausibly explaining why the
information was not yet reflected in the company’s
stock price. The district court interpreted this requirement to mean that the shareholders had to allege facts
explaining why “other market participants could not
have done the same analysis and reached the same
conclusion” as the authors of the blog posts. (Emphasis
added.) We think that sets the bar too high. For pleading purposes, the shareholders needed to allege particular
facts plausibly suggesting that other market participants
had not done the same analysis, rather than “could
not.” If other market participants had not done the
same analysis, then it is plausible that the blog posts

22a
disclosed new information that the market had not yet
incorporated into Bofl’s stock price.
Prior cases reflect the understanding that some
information, although nominally available to the public,
can still be “new” if the market has not previously
understood its significance. For example, in In re
Gilead Sciences Securities Litigation, 536 F.3d 1049
(9th Cir. 2008), a pharmaceutical company represented
that demand for an HIV drug was strong and that the
company complied with federal and state regulations,
despite knowing that unlawful off-label marketing
was the reason for strong demand. Id. at 1051. The
company then received a warning letter from the Food
and Drug Administration (FDA) about its off-label
marketing of the drug. Id. at 1052-53. The company’s
stock price did not incorporate the information
disclosed in the letter until three months after the
letter had been publicly released, when the company
reported a major earnings miss attributable to decreased
demand for the HIV drug. Id. at 1053-54. We concluded that the plaintiffs plausibly alleged the drop in
stock price was caused by the FDA warning letter. Id.
at 1058. Given the letter’s subtle relationship to the
company’s alleged misstatements—”it did not contain
enough information to significantly undermine [the
company’s] pronouncements concerning demand”—
the letter itself “would not necessarily trigger a
market reaction.” Id. Thus, it was “not unreasonable
that physicians . . . would respond to the Warning
Letter” by issuing fewer prescriptions and lowering
demand for the drug, “while the public failed to
appreciate its significance” until its impact on revenue
was made plain from the earnings release. Id. Despite
the three-month gap between the FDA letter and the
drop in stock price, the plaintiffs’ allegations were
enough to plead loss causation.

23a
Similarly, in Public Employees’ Retirement System
v. Amedisys, Inc., 769 F.3d 313 (5th Cir. 2014), a
Wall Street Journal article analyzed publicly available
Medicare records to conclude that Amedisys, a home
health services company, was engaging in Medicare
fraud. Id. at 318. The defendant unsuccessfully pressed
the same argument that Bofl advances here: “[B]ecause
the article proclaims on its face that its analysis was
`based on publicly available Medicare records,’ . . . [it]
does not reveal any new information to the marketplace.” Id. at 323. The Fifth Circuit rejected such a
rule, holding instead that “it is plausible that complex
economic data understandable only through expert
analysis may not be readily digestible by the marketplace.” Id. The underlying information, although
publicly available, “had little to no probative value in
its native state”; someone needed to put the pieces
together before the market could appreciate its import.
Id.
Contrary to the bright-line rule Bofl urges us to
adopt, these cases endorse a flexible approach to evaluating corrective disclosures. A disclosure based on
publicly available information can, in certain circumstances, constitute a corrective disclosure. The ultimate
question is again one of plausibility: Based on plaintiffs’ particularized allegations, can we plausibly infer
that the alleged corrective disclosure provided new
information to the market that was not yet reflected in
the company’s stock price? The fact that the underlying data was publicly available is certainly one factor
to consider. But other factors include the complexity of
the data and its relationship to the alleged misstatements, as in Amedisys and Gilead, and the great effort
needed to locate and analyze it, as the shareholders
allege here. Courts must assess these and other factors
on a case-by-case basis. We therefore decline to

24a
categorically disqualify the Seeking Alpha blog posts
as potential corrective disclosures.5
Even judged against this more forgiving standard,
the shareholders’ allegations concerning the eight blog
posts do not pass muster. We address each of the eight
posts that were followed by a decline in stock price.
The August 28, 2015, blog post. The author of this
post claimed to have “analyzed hundreds of Bofl’s loans,”
and on the basis of that review the author levied a host
of allegations against Bofl: that its loan-to-value ratios
were often higher than advertised; that the bank faced
personnel turnover in the audit department; that
it made risky loans to foreign nationals; and that
the Securities and Exchange Commission (SEC) was
possibly investigating the company.
The October 29, 2015, blog post. This post compared
Bofl’s transcript of an earnings call with the transcripts
prepared by news agencies, and it noted potentially
important discrepancies. The shareholders claim that
the discrepancies show Bofl’s “lack of internal controls
over financial reporting and risk management.”
The November 10, 2015, blog post. This post chronicles Bofl’s alleged relationships with two risky lenders,
Quick Bridge and OnDeck Capital. According to the
5

We acknowledge that the Eleventh Circuit has adopted the
bright-line rule BofI advocates. See Meyer, 710 F.3d at 1198 (“[T]he
fact that the sources used in the Einhorn Presentation were
already public is fatal to the Investors’ claim of loss causation.”).
And it is true that we cited Meyer approvingly when we held
that the mere announcement of an investigation is insufficient
to plead loss causation. See Loos, 762 F.3d at 889-90. But the
Loos court had no occasion to adopt Meyer’s holding about public
information, and its discussion of that portion of Meyer is
therefore dicta. We decline to extend it here.

25a
author, through these relationships, Bofl originated
bad loans, reaped the origination fees, and then sold
the loans to its partner to keep the loans off its books.
The author asserts that the loans involved are frequently the subjects of collection actions and bankruptcy
proceedings, and points to court filings suggesting that
“many borrowers appear to have never been capable of’
repaying the loans. This information potentially undermines the veracity of Bofl’s statements regarding its
conservative underwriting standards, particularly the
statement that Bofl had “not sacrificed credit quality
to increase origination.”
The November 18, 2015, blog post. This post states
that the author’s “research suggests that [Bofl] has
employed a former felon for over 5 years in a very
senior and pivotal role,” but does not name the individual. The author postulates that Bofl “had to have
known of the executive’s prior criminality” and therefore was probably “in violation of Section 19 of the
Federal Deposit Insurance Act.” The author concedes
he is not “100% certain” that Bofl’s executive is the
former felon, but states his analysis—which included
comparing a mugshot photo to a Linkedln photo,
and comparing signatures and birth dates on public
documents—was fairly rigorous. The author comments
on the regulatory penalties Bofl could face if it did not
obtain a waiver from the Federal Deposit Insurance
Corporation before employing a convicted felon. The
post also notes that Bofl made loans to the same
executive shortly after he filed for bankruptcy.
The November 19, 2015, blog post. In this post, the
author claims to have uncovered evidence that Bofl
provides financing to a “Special Purpose Entity” called
Center Street Lending Fund IV, LLC. According to the
author, Center Street offers “no doc” and “no FICO”

26a
loans and is a named defendant in litigation alleging
that it participated in a Ponzi scheme. These alleged
facts, documenting Bofl’s indirect financing of “no doc”
loans, potentially contradict the company’s claim to
“originate only full documentation” loans.
The December 8, 2015, blog post. This post asserts
that Bofl is financing another Special Purpose Entity,
WCL Holdings I, LLC, that was first mentioned in the
post of November 10. In the earlier post, the author
claimed that Bofl assigned the loans it originated with
Quick Bridge to WCL, although it was unclear at that
point whether Bofl was also financing WCL. This post
purports to show that Bofl is indeed lending to WCL.
Bofl’s alleged financing of an off-book entity to buy
back Bofl’s own risky loans potentially contradicts Bofl’s
statement that it achieved “strong loan growth . . .
while maintaining high credit quality standards.”
The January 6, 2016, blog post. This post unearths
evidence that Bofl made a roughly $32 million loan to
Encore Capital, a San Diego-based debt collector.
Encore’s then-Chief Financial Officer, Paul Grinberg,
was also the Chair of Bofl’s Audit Committee. The
loans allegedly allowed Encore to make a major acquisition, which led to Grinberg’s promotion. According to
the author, Bofl never disclosed this loan, as the SEC
requires for related-party transactions, and indeed
omitted the loan from the bank’s 2014 disclosures of
loans made to board members. These revelations
potentially contradict BofI’s statements about the
robustness of its compliance infrastructure.
The February 3, 2016, blog post. This post details
Bofl’s opening of a new Nevada branch and links it to
BofI’s acquisition of H&R Block’s lending products.
The shareholders imply that the post contradicts Bofl’s

27a
statements about its underwriting standards and
compliance infrastructure.
The fact that each of these blog posts relied on
nominally public information does not, on its own,
preclude them from qualifying as corrective disclosures. Some of the posts required extensive and tedious
research involving the analysis of far-flung bits and
pieces of data. The authors arrived at their conclusions
after scouring through hundreds of Uniform Commercial
Code filings, bankruptcy court documents, and other
companies’ registration documents. While other investors
undoubtedly could have reviewed registration documents, they likely would not have known to investigate
Quick Bridge, On Deck, or Encore precisely because
Bofl had hidden its relationships with those entities.
Cf. Norfolk County, 877 F.3d at 697. The time and
effort it took to compile this information make it
plausible that the posts provided new information to
the market, even though all of the underlying data was
publicly available. Cf. Amedisys, 769 F.3d at 323.
We nonetheless conclude that the shareholders
have not plausibly alleged that these posts constituted
corrective disclosures. Even if the posts disclosed
information that the market was not previously aware
of, it is not plausible that the market reasonably
perceived these posts as revealing the falsity of Bofl’s
prior misstatements, thereby causing the drops in
Bofl’s stock price on the days the posts appeared. The
posts were authored by anonymous short-sellers who
had a financial incentive to convince others to sell,
and the posts included disclaimers from the authors
stating that they made “no representation as to the
accuracy or completeness of the information set forth
in this article.” A reasonable investor reading these

28a
posts would likely have taken their contents with a
healthy grain of salt.6
Therefore, the shareholders have not plausibly
alleged that any of the Seeking Alpha blog posts constituted a corrective disclosure. The district court did not
abuse its discretion in denying further leave to amend,
as the court had already pointed out the deficiencies
in the shareholders’ loss causation allegations concerning the blog posts and had given them an
opportunity to correct those deficiencies. See Loos, 762
F.3d at 890-91.
IV
Finally, we take up the new category of misstatements that the shareholders alleged for the first time
in the Third Amended Complaint, concerning government and regulatory investigations. We agree with the
district court that the shareholders failed to plausibly
allege the falsity of any of the alleged misstatements
in this new category. All but three of the challenged
statements are expressions of opinion, not statements
of fact “capable of objective verification.” Apollo Group,
774 F.3d at 606. For example, Garrabrants told investors
that regulatory review “is beyond a nonissue” and that
“[w]e have great regulatory relations.” These vague
assurances reflect Garrabrants’s opinions and predictions, which are not actionable. See In re Cutera Securities
Litigation, 610 F.3d 1103, 1111 (9th Cir. 2010).
The shareholders have not plausibly alleged falsity
with respect to the three remaining statements. On an
6

Some of the posts suffer from other deficiencies. For example,
the October 29, 2015, post, comparing transcripts, did not require
any special expertise or effort. And most of the misdeeds alleged
in the August 28, 2015, and February 3, 2016, posts are not
tethered to any actionable misstatements.

29a
earnings call, Garrabrants told investors that: (1) there
was “nothing ongoing” with the OCC; (2) there was “no
continuity” to any of Erhart’s complaints submitted to
the OCC; and (3) there were no “regulatory issues of
any kind that have arisen from Mr. Erhart’s contact
with the OCC.” These statements were accurate.
Although the SEC was investigating Bofl at the time,
it is unclear whether anyone at Bofl was aware of that
fact when Garrabrants spoke, and his statements were
specifically limited to the OCC in any event. The
shareholders do not argue that Garrabrants had an
independent duty to disclose the SEC investigation.
Without such a duty, Garrabrants was under no obligation to mention it. See Basic Inc. v. Levinson, 485
U.S. 224, 239 n.17 (1988); Retail Wholesale & Department
Store Union Local 338 Retirement Fund v. HewlettPackard Co., 845 F.3d 1268, 1278 (9th Cir. 2017).
* * *
The shareholders have adequately pleaded a viable
claim under § 10(b) and Rule 10b-5 for the two
categories of misstatements the district court found
actionable, with the Erhart lawsuit serving as a
potential corrective disclosure. We reverse the district
court’s judgment dismissing the action with prejudice
and remand for further proceedings consistent with
this opinion.7
Appellant’s Motion for Judicial Notice (Dkt. No. 12)
is GRANTED.
REVERSED and REMANDED.

7

Because the shareholders have alleged a viable claim under
§ 10(b), the district court on remand should reinstate their claims
under § 20(a) against the individual defendants.

30a
LEE, Circuit Judge, concurring in part III.B. in
judgment and dissenting in part III.A.:
Philosophers have long debated the question, “If a
tree falls in the forest but no one is around to hear it,
does it make a sound?” This case perhaps presents the
converse of that conundrum: If there is no fraud, can a
securities fraud lawsuit still proceed?
The majority holds that a former employee’s allegations of fraud in a whistleblower lawsuit may count
as a “corrective disclosure” under Rule 10b-5’s loss
causation requirement as long as they are plausible
even if there is no additional evidence or disclosure
corroborating them. I agree with much of the analysis
in the majority’s thoughtful opinion, which attempts
to balance carefully competing concerns on a very
difficult issue.
But I still fear that the decision will have the
unintended effect of giving the greenlight for securities
fraud lawsuits based on unsubstantiated assertions
that may turn out to be nothing more than wisps of
innuendo and speculation. And even meritless securities fraud lawsuits impose an exorbitant cost on
companies. I would thus require additional external
confirmation of fraud allegations in a whistleblower
lawsuit for them to count as a “corrective disclosure.”
Doing so comports with our case law and common
sense. I thus respectfully dissent from the majority’s
holding that plausible insider allegations, standing
alone, can qualify as a corrective disclosure (part
III.A.).
* * * *
Charles Erhart, a mid-level auditor at BofI, sued his
former employer after being terminated, claiming that

31a
it was retaliation for whistleblowing. His lawsuit
against BofI will go to trial sometime next year.
The majority believes that Erhart’s allegations in
his separate whistleblower lawsuit against Bofl are
plausible enough to constitute a “corrective disclosure”
under Rule 10b-5’s loss causation requirement. The
majority opinion thus allows shareholders in this lawsuit
to piggyback off of Erhart’s whistleblower lawsuit
against his former employer. It may well be that Erhart’s
allegations in his lawsuit are true. His allegations, if
true, paint a company rife with corruption and mismanagement. And many corporate schemes of malfeasance
have unraveled after a whistleblower exposed the
wrongdoing.
But what if it turns out that Erhart’s allegations in
his lawsuit are bunk? What if he is mistaken? Perhaps
he misconstrued certain information because, as a
fairly junior-level employee, he did not understand
or have access to all the facts. Or what if (as BofI
suggests) he is a loose cannon who has a messianic
zeal for seeing wrongdoing where none exists? At this
point, we simply do not know, especially with no other
evidence or disclosure to corroborate Erhart’s claims
in his lawsuit.
But we do know that BofI has not issued any
financial disclosures that would confirm Erhart’s allegations that he first aired in 2015. BofI has not done
so, even though the U.S. Department of Justice, the
Securities and Exchange Commission, and the Treasury
Department have reportedly investigated Bofl. And
apparently at least one SEC investigation that began
in 2015 has already closed with no action.
Put another way, five years have passed since
Erhart first disclosed allegations of misconduct at

32a
Bofl, and multiple government agencies commenced
investigations into Bofl. Yet so far, we have not seen
any external evidence corroborating Erhart’s allegations. So it may turn out that there may be smoke but
no fire. But based solely on a midlevel employee’s selfinterested allegations in a separate lawsuit, we are
allowing a securities fraud lawsuit to move forward. It
is premature to do so. Erhart may ultimately be
vindicated, and perhaps the government investigations will eventually expose fraud, but we should not
let a securities fraud lawsuit proceed when, at this
point, there may no there there. We may end up with
a scenario in which Erhart loses his whistleblower
trial, and the government agencies end their investigations without any action and yet Bofl may end up
settling a securities fraud case for millions of dollars
to avoid litigation costs.
The majority notes that not every insider allegation
in a lawsuit will count as a corrective disclosure; only
“plausible” ones will survive a dismissal. While the
plausibility standard under Iqbal/Twombly has rooted
out many meritless cases at the pleading stage, such a
standard will likely be less useful in a securities fraud
lawsuit based on insider allegations in a whistleblower
lawsuit. An insider account will almost always have a
patina of plausibility because it will likely be based on
some non-public allegation that cannot be easily
disputed or rebutted at the pleading stage. Indeed, like
any good conspiracy theory, an insider’s story often
has some element of truth to it, even if it is largely
mistaken or misguided. In the end, the plausibility
standard will likely stave off only lawsuits based on
insider accounts that even Mulder and Scully would
find unbelievable. In short, the plausibility standard
provides little comfort to companies that may face

33a
securities fraud lawsuits based on unsubstantiated
insider allegations.
What’s the harm of letting a securities fraud lawsuit
go forward if the company can eventually vindicate
itself at trial? Plenty. According to Cornerstone
Research, approximately 8.9% of all public companies
listed on a U.S. securities exchange were the target of
a securities class action in 2019. See Cornerstone
Research, Securities Class Action Filings: 2019 Year in
Review, 11 (Jan. 29, 2020), https://bit.ly/2TpajjY. And
in 2018, the median cost of a securities class-action
settlement was $13 million, according to one estimate.
See Chubb, From Nuisance to Menace: The Rising Tide
of Securities Class Action Litigation (June 2019),
https://bit.ly/3cvbIx4. If a securities fraud lawsuit
survives a motion to dismiss, it likely will lead to a
settlement to the tune of millions of dollars. In the past
quarter-century or so, only six securities fraud cases
apparently have been tried to verdict. See Jeffrey A.
Barrack, A Primer on Taking A Securities Fraud Class
Action to Trial, 31 Am. J. Trial Advoc. 471, 476 (2008).
In a time when trials are rare, securities fraud trials
are virtually extinct. That is why the loss causation
requirement acts as a critical bulwark against frivolous securities fraud lawsuits. It guards against
lawsuits being used as an “in terrorem device” to
bludgeon companies into settling claims to “avoid the
cost and burden of litigation.” Meyer v. Greene, 710
F.3d 1189, 1196 (11th Cir. 2013) (citing Dura Pharms.,
Inc. v. Broudo, 544 U.S. 336, 347-48 (2005)).
It is true that Bofl’s shares plummeted 30% after
Erhart publicly accused his former employer of fraud.
But that does not necessarily mean Erhart’s allegations revealed the “truth” and acted as a corrective
disclosure. Rather, it is better construed as a disclosure

34a
of “an added risk of future corrective action.” Meyer,
710 F.3d at 1201 (ruling that an announcement of
an SEC investigation by itself is not a corrective
disclosure but signals an added risk of it).
Our decision in Loos v. Immersion Corp. is instructive. There, Immersion announced an internal
investigation into revenue recognition practices of its
medical line of business. Loos, 762 F.3d 880, 885 (9th
Cir. 2014). The company’s stock price plummeted
23% after this disclosure. Id. A shareholder lawsuit
inevitably followed. We affirmed the district court’s
dismissal of the securities fraud lawsuit, ruling that
the company’s announcement of potential problems
with revenue recognition was not a corrective disclosure. While the disclosure was “ominous,” it “simply
put[] investors on notice of a potential future disclosure
of fraudulent conduct.” Id. at 890.
Similarly, in Curry v. Yelp Inc., Yelp’s stock price
dropped after the FTC disclosed more than 2,000
complaints from businesses alleging that Yelp had
manipulated reviews. 875 F.3d 1219, 1222 (9th Cir.
2017). We acknowledged that a plaintiff “need not
allege an outright admission of fraud,” but we affirmed
the dismissal of the lawsuit because the “mere `risk’ or
`potential’ for fraud is insufficient to establish loss
causation.” Id. at 1225 (quoting Loos, 762 F.3d at 889).
Likewise here, Erhart’s allegations are certainly
“ominous,” and may in fact be true. But at this time,
the drop in BofI’s share price “can only be attributed
to market speculation about whether fraud has occurred.”
Loos, 762 F.3d at 890. And this “type of speculation
cannot form the basis of a viable loss causation theory.”
Id. Before plaintiffs can establish loss causation based
on an unsubstantiated whistleblower complaint, another
shoe has to drop. It has not yet.

35a
In short, if a securities fraud lawsuit turns on
insider allegations of wrongdoing in a whistleblower
lawsuit, I would prefer a bright-line rule that requires
an external disclosure or evidence that confirms those
allegations. It need not be a mea culpa from the
company, but perhaps a surprise restatement of earnings, an unexplained announcement about an increase
in reserves, or some other information that confirms
those allegations and thus acts as a corrective
disclosure.1
Finally, I agree with the majority that the anonymous Seeking Alpha posts are not corrective disclosures.
I would, however, base our decision on the grounds
that the Seeking Alpha posts contain public information only, and that we should not credit anonymous
posts on a website notorious for self-interested shortsellers trafficking in rumors for their own pecuniary
gain. See, e.g., Jeff Katz & Annie Hancock, Short
Activism: The Rise of Anonymous Online Short Attacks,
Harvard Law School Forum on Corporate Governance
(Nov. 27, 2017), https://bit.ly/3kqF3fi (noting the rise
of short shellers engaging in anonymous attacks and
explaining that a “short seller need only prove that a
fraction of the allegations is true, while the company
must disprove each and every allegation”).
I thus concur in judgment in part III.B. and
respectfully dissent as to part III.A.

1

Some may argue that such a requirement may create
perverse incentives for a company not to make a corrective disclosure. Perhaps it might in the short run, but a wrongdoer can
balance its house of cards for only so long until it ultimately
collapses. Insider allegations of wrongdoing almost always lead
to governmental investigations, and the truth ultimately comes
out under scrutiny.

36a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Filed: March 21, 2018]
————
Case No.: 3:15-cv-02324-GPC-KSC
————
IN RE BOFI HOLDING, INC. SECURITIES LITIGATION
————
ORDER GRANTING MOTION TO
DISMISS WITH PREJUDICE
[ECF No. 144]
Before the Court is a motion to dismiss the Third
Amended Class Action Complaint (the “TAC”) filed
by Defendants Bofl Holding, Inc. (“BofI”), Gregory
Garrabrants, Andrew J. Micheletti, Paul J. Grinberg,
Nicholas A. Mosich, and James S. Argalas. (ECF No.
144.) The motion is fully briefed. For the reasons
explained below, Lead Plaintiff has failed to allege
with particularity essential elements of its securities
fraud claims. The Court therefore GRANTS the motion
to dismiss with prejudice.
I. Background
In this consolidated putative securities fraud class
action, purchasers of Bofl’s1 stock assert claims against
Bofl and several corporate officers for violations of
Sections 10(b) and 20(a) of the Securities Exchange
1

“BofI is the holding company for Bofl Federal Bank, a
federally chartered savings association that purportedly operates
from its single location in San Diego.” (TAC, ECF No. 136 at
¶ 28.) In this ruling, “Bofl” will refer to both the holding company
and its subsidiary Bofl Federal Bank.

37a
Act of 1934. On February 1, 2016, the Court appointed
Houston Municipal Employees Pension System as the
Lead Plaintiff (ECF No. 23), and on April 11, 2016,
Lead Plaintiff filed a First Amended Complaint (the
“FAC”) (ECF No. 26). Defendants filed a motion to
dismiss the FAC on the grounds that the FAC (1) failed
to identify false or misleading statements and (2) did
not plead sufficient facts giving rise to a strong inference of scienter. (ECF No. 37.) The Court granted in
part and denied in part. (ECF No. 64.) The Court
noted that many of the misrepresentations alleged in
the FAC fell “short of the PSLRA’s [Private Securities
Litigation Reform Act] heightened standards,” but
because a securities plaintiff “need only plead a single
materially false misrepresentation to survive a motion
to dismiss,” the Court’s conclusion that the FAC alleged
at least some material misrepresentations meant that
the Court did not need to “dwell on those aspects of the
Complaint” that did not meet the PSLRA’s standards.
(Id. at 15.) The Court found, however, that the FAC’s
allegations were insufficient to create a “strong inference of scienter on the parts of Defendants Micheletti,
Grinberg, Mosich, and Argalas,” and dismissed the
claims against those defendants without prejudice.
(Id. at 25-27.)
On November 25, 2016, Lead Plaintiff filed a Second
Amended Complaint (the “SAC”). (ECF No. 79.) Defendants again moved to dismiss. (ECF No. 88.) Again, the
Court granted in part and denied in part. (ECF No.
113.) The Court first addressed Defendants’ reassertion that Lead Plaintiff’s pleadings failed to identify
any material misrepresentations. Noting that the
SAC—like the FAC—was excessive in length, the
Court found it helpful to delineate which of the alleged
misrepresentations were actionable, and which were
not. The Court explained that the SAC alleged “actionable

38a
fraudulent or misleading statements as to Bofl’s loan
underwriting practices and as to its internal controls
and compliance infrastructure, but [did] not sufficiently demonstrate[] that Defendants’ statements about
its Allowance for Loan Losses (ALL), Net income/
diluted price per share, Loan-to-Value Ratio (LTV), or
undisclosed lending partnerships are actionable under
the securities laws.” (Id. at 9.) Noting that the SAC
added no new allegations of scienter on the parts of
Micheletti, Grinberg, Mosich, and Argalas, the Court
again granted the motion to dismiss the Section 10(b)
claims against them. (Id. at 3.) The Court nonetheless
found the new “control person” allegations sufficient
to state plausible Section 20(a) claims against all
Defendants. (Id. at 58.)
On September 29, 2017, Defendants filed a motion
for judgment on the pleadings in which they argued
Lead Plaintiff had not pled with sufficient particularity that a disclosure of the falsity of Defendants’
misrepresentations caused Lead Plaintiff loss. (ECF
No. 123.) The Court agreed and granted the motion.
(ECF No. 134.) The Court explained that the corrective
disclosures identified in the SAC—a complaint filed
in federal court against Bofl and a series of articles
posted on the website Seeking Alpha—either were
irrelevant to the alleged misrepresentation or did not
actually reveal any fraud to the market. Because
that was the first time Defendants argued that Lead
Plaintiff failed to plead loss causation adequately, the
Court granted Lead Plaintiff leave to amend. (Id. at
21.)
On December 22, 2017, Lead Plaintiff filed the
now-operative TAC. (ECF No. 136.) As Lead Plaintiff
explains in its memorandum in opposition to the
instant motion, the TAC is intended to be responsive

39a
not only to the Court’s judgment on the pleadings
ruling, but also to the Court’s earlier ruling on
Defendants’ motion to dismiss the SAC. (See ECF No.
148 at 1-2 n.2.) Defendants filed the instant motion
to dismiss on January 19, 2018. (ECF No. 144.) Defendants argue that the new alleged misrepresentations in
the TAC are not actionable and that the TAC again
fails to plead loss causation adequately. Defendants
also argue that because Section 20(a) claims require a
violation of the securities laws, the TAC’s failure to
state a claim of violation of Section 10(b) requires
dismissal of Lead Plaintiff’s Section 20(a) claims. (Id.
at 25.)
II. Legal Standard
A Rule 12(b)(6) motion attacks the complaint as not
containing sufficient factual allegations to state a
claim for relief. “To survive a motion to dismiss [under
Rule 12(b)(6)], a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.”’ Ashcroft v. Iqbal,
556 U.S. 662, 679 (2009) (quoting Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 570 (2007)). While “detailed
factual allegations” are unnecessary, the complaint
must allege more than “[t]hreadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements.” Iqbal, 556 U.S. at 678. “In
sum, for a complaint to survive a motion to dismiss,
the non-conclusory ‘factual content,’ and reasonable
inferences from that content, must be plausibly suggestive of a claim entitling the plaintiff to relief.” Moss
v. U.S. Secret Serv., 572 F.3d 962, 969 (9th Cir. 2009).
A claim of fraud must comply with Rule 9(b), which
requires the complaint to state with particularity the
circumstances constituting fraud. See Fed. R. Civ. P.
9(b). Satisfaction of this heightened standard requires

40a
delineating “the time, place, and specific content of the
false representations as well as the identities of the
parties to the misrepresentation.” Odom v. Microsoft
Corp., 486 F.3d 541, 553 (9th Cir. 2007) (quoting
Schreiber Distrib. Co. v. Serv-Well Furniture Co., 806
F.2d 1393, 1400 (9th Cir. 1986)). The complaint must
also indicate “what is false or misleading about a
statement, and why it is false,” and “be specific enough
to give defendants notice of the particular misconduct
that they can defend against the charge and not just
deny that they have done nothing wrong.” Vess v.
Ciba-Geigy Corp. USA, 317 F.3d 1097, 1106 (9th Cir.
2003) (quoting Bly-Magee v. California, 236 F.3d 1014,
1019 (9th Cir. 2001)). In the Ninth Circuit, Rule 9(b)’s
heightened pleading standard applies to all element
of a securities fraud claim, including loss causation.
Or. Pub. Empls. Ret. Fund v. Apollo Grp. Inc., 774 F.3d
598, 605 (9th Cir. 2014).
III. Discussion
The elements of Lead Plaintiff’s Section 10(b)
claims, which assert a violation of Rule 10b-5 (see TAC
¶ 274), are (1) a material misrepresentation or omission, (2) scienter, (3) in connection with the purchase
or sale of a security, (4) reliance, (5) economic loss, and
(6) loss causation. Dura Pharms., Inc. v. Broudo, 544
U.S. 336, 341-42 (2005). In addition to Rule 9(b)’s
application to such claims, the Private Securities
Litigation Reform Act (“PSLRA”) imposes heightened
pleading requirements for the elements of falsity and
scienter. With respect to each alleged misrepresentation, the PSLRA mandates that the complaint
“(1) ‘specify each statement alleged to have been
misleading [and] the reason or reasons why the
statements is misleading,’ 15 U.S.C. § 78u-4(b)(1); and
(2) ‘state with particularity facts giving rise to a strong

41a
inference that the defendant acted with the required
state of mind,’ § 78u-4(b)(2).” Tellabs, Inc. v. Makor
Issues & Rights, Ltd., 551 U.S. 308, 321 (2007).
“Absent a duty to disclose, an omission does not
give rise to a cause of action under § 10(b) and Rule
10b-5 . . . . An actionable omissions claim arises only
when disclosure is ‘necessary . . . to make the statements made, in light of the circumstances under which
they were made, not misleading.’ Retail Wholesale &
Dep’t Store Union Local 338 Ret. Fund v. HewlettPackard Co., 845 F.3d 1268, 1278 (9th Cir. 2017)
(quoting 17 C.F.R. § 240.10b-5(b)).
As discussed in Lead Plaintiff’s memorandum in
opposition, the TAC retains the misrepresentations
deemed actionable by the Court in its earlier ruling,
but it also adds new instances of alleged material
misrepresentations. The TAC groups the alleged misrepresentations into three categories: (1) statements
regarding Bofl’s internal controls, compliance infrastructure, and risk management; (2) statements
regarding Bofl’s underwriting standards and credit
quality requirements; and (3) statements regarding
regulatory investigations. (ECF No. 148 at 2.) In the
analysis that follows, the Court describes the misrepresentations alleged,2 and then assesses whether the
2
In its prior ruling, the Court cautioned Lead Plaintiff that the
excessive length of its pleadings was contrary to Federal Rule of
Civil Procedure 8. (ECF No. 134 at 21.) It appears that Lead
Plaintiff has chosen not to heed the Court’s warning. Like its
earlier iterations, the TAC spans more than one hundred pages
and includes numerous allegations of misrepresentations that
are patently non-actionable under Ninth Circuit case law. The
line between exhaustiveness and excessiveness may be thin, but
the TAC clearly falls on the latter side of that divide. Nonetheless,
the Court has made an exhaustive review of the TAC and its
attached chart organizing Lead Plaintiff’s allegations.

42a
corresponding alleged corrective disclosures satisfy
Rule 9(b)’s heightened pleading standard. With respect
to the first two categories—statements regarding internal
controls and underwriting standards—the Court concludes that the allegations of loss causation are
inadequate to satisfy Rule 9(b). As for the third
category—statements and omissions regarding
regulatory investigations—the Court concludes that
(1) the alleged statements and omissions are not
actionable and (2) the allegations of loss causation are
inadequate to satisfy Rule 9(b).
Before engaging in this analysis, however, the Court
finds it helpful to review its previous discussion of the
definition of “corrective disclosure” in this context.
A. Definition of “Corrective Disclosure”
To establish the element of loss causation, a plaintiff
“must plausibly allege that the defendant’s fraud
was revealed to the market and caused the resulting
losses.” Loos v. Immersion Corp., 762 F.3d 880, 887
(9th Cir. 2014) (internal quotation marks omitted).
“The misrepresentation need not be the sole reason for
the decline in value of the securities, but it must be a
substantial cause.” In re Gilead Scis. Secs. Litig., 536
F.3d 1049, 1055 (9th Cir. 2008) (internal quotation
marks omitted). “This inquiry requires no more than
the familiar test for proximate cause”; the ultimate
issue “is whether the defendant’s misstatement, as
opposed to some other fact, foreseeably caused the
plaintiff’s loss.” Mineworkers’ Pension Scheme v. First
Solar Inc., 881 F.3d 750, 753-54 (9th Cir. 2018)
(quoting Lloyd v. CBV Fin. Corp., 811 F.3d 1200, 1210
(9th Cir. 2016)). As stated above, however, loss causation must be pleaded with particularity under Rule
9(b). Apollo Grp., 774 F.3d at 605.

43a
To prove loss causation, Lead Plaintiff points to
what it asserts are “corrective disclosures” of Bofl’s
misrepresentations and notes that a drop in Bofl’s
stock price occurred soon after. A corrective disclosure
must be relevant to the alleged misrepresentation at
issue; it must “relate back to the misrepresentation
and not to some other negative information about the
company.” Bonanno v. Cellular Biomedicine Grp., Inc.,
No. 15-cv-01795-WHO, 2016 WL 4585753, at *3 (N.D.
Cal. Sept. 2, 2016) (internal quotation marks omitted).
In other words, a corrective disclosure “is a disclosure
that reveals the fraud, or at least some aspect of the
fraud, to the market.” In re REMEC Inc. Secs. Litig.,
702 F. Supp. 2d 1202, 1266-67 (S.D. Cal. 2010) (quoting Teamsters Local 617 Pension & Funds v. Apollo
Grp, Inc., 633 F. Supp. 2d 763, 818 (D. Ariz. 2009)).
While a corrective disclosure need not be “an
outright admission of fraud to survive a motion to
dismiss,” the disclosure of “a mere `risk’ or `potential’
for fraud . . . is insufficient to establish loss causation.”
Loos, 762 F.3d at 888-89 (citing Metzler Inv. GMBH v.
Corinthian Colls., Inc., 540 F.3d 1049, 1064 (9th Cir.
2008)). It also need not be a singular event: a series of
disclosures, when “viewed in tandem,” may be adequate if “[t]he combined force of the[] statements . . .
suggest that the market was alerted to” the relevant
misrepresentations. Metzler, 540 F.3d at 1063 n.6,
1064 n.8. When a series of partial disclosures are
alleged, the Court asks whether a full disclosure of
the defendant’s misrepresentation has been made by
“view[ing each] together with the totality of the other
alleged partial disclosures.” Lloyd, 811 F.3d at 1210
(quoting Pub. Empls. Ret. Sys. of Miss. v. Amedisys,
Inc., 769 F.3d 313, 324 (5th Cir. 2014)).

44a
As the term suggests, a corrective disclosure normally must reveal some piece of previously undisclosed
information showing the falsity of the misrepresentation. See In re Novatel Wireless Secs. Litig., 830 F.
Supp. 2d 996, 1019 (S.D. Cal. 2011) (“It stands to
reason then that [a] disclosure that does not reveal
anything new to the market is, by definition, not
corrective.” (internal quotation marks omitted)); In re
Maxim Integrated Prods., Inc. Secs. Litig., 639 F.
Supp. 2d 1038, 1048 (N.D. Cal. 2009) (“[A] disclosure
that does not reveal anything new to the market is, by
definition, not corrective.” (internal quotation marks
omitted)). If the alleged disclosure is duplicative of
public information, the market will already have
incorporated that information into the stock price;
thus, the repeated discussion of the same information
normally will not cause any later stock price decrease.
See Bonnano, 2016 WL 4585753, at *5 (aggregation of
publicly-available information “cannot constitute new
information because an efficient market would easily
digest all public information without the need for [the
aggregation] to regurgitate it first” (internal quotation
mark omitted)). Repeated discussion of already public
information may serve as a corrective disclosure,
however, when it brings to light an implication of
which the market was not aware because understanding that implication required some technical or
scientific expertise. See Gilead Scis., 536 F.3d at 105354. For example, a discussion of public information
may be adequate to serve as loss causation if it
interprets “complex economic data understandable
only through expert analysis [that was not previously]
readily digestible by the marketplace.” Amedisys, 769
F.3d at 323. By bringing to light an implication of
these generally non-digestible data, such an “interpretive corrective disclosure” reveals to the public for

45a
the first time information that impacts the value of the
stock.
Ultimately, “there is no requirement that the
corrective disclosure take a particular form or be of a
particular quality . . . . It is the exposure of the fraudulent representation that is the critical component of
loss causation.” In re Bristol Myers Squibb Co. Secs.
Litig., 586 F. Supp. 2d 148, 164 (S.D.N.Y. 2008) (internal quotation marks omitted). In essence, the question
is: after the disclosures identified by Plaintiff were
made, did the market become aware of the falsity of
Defendants’ misrepresentations to the extent that it
devalued BofI’s stock? “If yes, Plaintiff has pled with
particularity how Defendants’ misrepresentations caused
Plaintiff harm; if no, Plaintiff’s allegations do not meet
the pleading requirements.” (ECF No. 134 at 8.)
B. Analysis
For the reasons explained below, the Erhart
Complaint served, at most, only as a partial corrective
disclosure of the relevant fraud alleged in the TAC.
Moreover, the Seeking Alpha articles discussed in the
TAC cannot serve as even partial corrective disclosures
because they relied on publicly available information,
and offered no analysis not generally available to the
rest of the market. In response to the Court’s previous
ruling, the TAC adds allegations for each article
stating, conclusively, that the market did not appreciate
the implications of the publicly available information
relied upon by that article. But those conclusory
allegations are not sufficient to meet Rule 9(b)’s
pleading standard because they do not suggest any
plausible reason why market participants would not
have understood the implications of the information in
front of them. Finally, the motion to seal filed by Bofl
in a different case raised, at most, speculation that the

46a
Defendants’ statements about government investigations were false.
Considering all of the alleged corrective disclosures
together, the Court concludes that the TAC does not
identify with particularity a corrective disclosure of
the misrepresentations alleged.
i. Internal Controls, Compliance Infrastructure, and Risk Management
The TAC alleges that Bofl and its corporate officers
made numerous misrepresentations about the adequacy
and effectiveness of Bofl’s internal controls, compliance infrastructure, and risk management. These
alleged misrepresentations were made in Form 10-Ks
(TAC ¶ 39), Form 10-Qs (id. ¶ 41), proxy statements
(id. ¶¶ 43, 45), Sarbanes-Oxley certifications (id.
¶¶ 46-47), Form 8-Ks (id. ¶ 49), and during investor
presentations (id. ¶ 50) and earnings conference calls
(id. ¶ 51). The alleged misrepresentations in this area
asserted that Bofl’s Audit Committee was governed by
policies that ensured sound and effective internal
controls and that management was responsible for
maintaining such effective internal controls. (Id.
¶¶ 39, 43, 45, 49.) They also asserted that Bofl officers
had found the bank’s internal controls and disclosure
policies to be effective, and they had reviewed bank
policies for deficiencies. (Id. (¶¶ 41, 46.) Lead Plaintiff
also points to statements allegedly made by Garrabrants
and Micheletti suggesting that Bofl had robust risk
management systems and had even recently made
significant investments in its compliance staff, including
adopting new systems and hiring new staff. (Id. ¶¶ 50,
51.) Finally, Lead Plaintiff points to Bofl’s policy regarding related-party lending, which asserted that such
loans were generally made on the same terms as
similarly situated borrowers who were not affiliated

47a
with Bofl. (Id. ¶¶ 53-54.) According to the TAC, these
statements were false because, in reality, Bofl had
essentially no internal controls. For example, the TAC
cites statements by confidential witnesses who worked
at Bofl and indicate that management consistently
overrode the actions and concerns of internal auditors,
altered reports, approved loans to related parties that
were significantly more generous than those offered to
non-affiliated borrowers, and falsely responded to
regulatory subpoenas and requests. (Id. ¶¶ 56-122.)
With respect to the disclosure of the falsity of these
misrepresentations, the TAC points to two sources:
(1) a complaint filed in federal court and (2) several
articles published on the website Seeking Alpha. The
Court addresses these alleged corrective disclosures in
turn.
Charles Matthew Erhart, a former Bofl internal
auditor, filed a complaint against Bofl in federal court
on October 13, 2015. Erhart v. Bofl Holding, Inc., No.
3:15-cv-02287-BAS-NLS (S.D. Cal.), ECF No. 1 (the
“Erhart Complaint”). As recounted in the TAC, the
Erhart Complaint makes numerous accusations that
Bofl officials engaged in serious misconduct during
Erhart’s tenure at the company. (See TAC ¶ 124.) In
its previous ruling, the Court described the allegations
set forth in the Erhart Complaint:
The Erhart Complaint alleges that Bofl officers
did the following while Erhart served as an
internal auditor at Bofl: instructed him to
remove or shield from discovery any discussion of unlawful conduct that Erhart had
noted in an audit report; falsified Bofl’s
financial statements; failed to make timely
contributions to Bofl’s employees’ 401k accounts
without notifying the Internal Revenue Service

48a
or Department of Labor; submitted to the
auditing office a strategic plan with forged
signatures of the Board of Directors; maintained a too-concentrated deposit source;
instructed Erhart never to put evidence of
illegal conduct in writing; falsely responded
to an SEC subpoena requesting information
about a specific account by indicating that
Bofl had no information about that account;
falsely responded to a request by the Office of
the Comptroller of the Currency (the “OCC”)
for information on bank accounts with no tax
identification number by stating that Bofl
had no such accounts; falsely told the OCC
that the bank had not received any correspondence or subpoenas from federal and
state banking agencies and law enforcement;
made undisclosed substantial loans to foreign
nationals with serious criminal histories in
violation of the Bank Secrecy Act’s AntiMoney Laundering Rules; altered auditing
reports required by the Bank Secrecy Act’s
Quality Control requirements; materially
miscalculated the bank’s allowance for loan
and lease losses; created such a “nonexistent
culture of compliance” that multiple members
of the auditing offices left their jobs; removed
negative findings in a Flood Disaster Protection Act audit before submitting it to the
OCC; “sanitized” a report later submitted to
the OCC describing third party customers
who were involved in Bofl’s Global Cash Card
program by removing information suggesting
that the customers were fake; and prevented
members of the audit department from using
email to communicate so as to prevent the

49a
creation of a “paper trail.” The complaint also
alleges that BofI’s largest consumer account
was listed under Garrabrants’s brother’s name,
and that Plaintiff suspected that the money
in that account came from Garrabrants’s
rather than Garrabrants’s brother. Finally,
the complaint alleges that Erhart’s manager,
John Ball, abruptly resigned on March 5,
2015, “after refusing an order from CEO
Garrabrants to engage in what Ball reasonably viewed to be unlawful conduct to cover
up the Bank’s wrongdoing,” and that after
Ball resigned, an officer instructed the auditing department not to inform the OCC of
Ball’s resignation.
(ECF No. 134 at 9-10 (footnote and citations
omitted).)3 In its previous ruling, the Court concluded
that the Erhart Complaint’s allegations were not relevant to the actionable misrepresentations regarding
internal controls and compliance infrastructure because
they did not demonstrate that “the compliance office
was understaffed or had not been `beefed up’ during
the relevant period.” (Id. at 10-11.) Because the Erhart
allegations were irrelevant, the Court found it did not
need to address “the parties’ dispute over whether
allegations asserted in a whistleblower complaint may
serve as a partial disclosure in the first place.” (Id. at
11 n.3.) The TAC, however, asserts new allegations of
misrepresentations that make the Erhart Complaint
potentially relevant. For example, Erhart’s allegations
that BofI officers prevented internal auditors from
3

As the Court noted in its previous ruling, Erhart has since
filed a First Amended Complaint. See Erhart, No. 3:15-cv-02287BAS-NLS, ECF No. 32. The relevant allegations in the First Amended
Complaint do not differ materially from the original.

50a
discussing illegal conduct in writing and altered audit
reports are arguably relevant to Garrabrants and
Micheletti’s assertion that they confirmed the effectiveness of the Audit Committee’s controls and procedures.4
a. The Erhart Complaint as a Corrective Disclosure
The potential relevance of the Erhart Complaint
tees up the question this Court avoided in its prior
ruling: whether the allegations in the Erhart Complaint can serve as a corrective disclosure. The Court
concludes that, on their own, Erhart’s allegations
cannot serve as a corrective disclosure. Rather, allegations in a complaint are analogous to an announcement of internal or regulatory investigations into
misconduct, which have been held insufficient, on
their own, to serve as corrective disclosures. For
example, in Loos, the Ninth Circuit held that that a
company’s announcement that it was initiating an
internal review of its accounting practices was
insufficient to serve as a corrective disclosure. 762
F.3d at 890. The court explained that an investigation
raises merely a “risk” or “potential” of fraud, rather
than a disclosure of fraud. Id. at 888-89. “While the
disclosure of an investigation is certainly an ominous
event, it simply puts investors on notice of a potential
future disclosure of fraudulent conduct.” Id. at 890. As
a result, the court concluded, “any decline in a
corporation’s share price following the announcement
of an investigation can only be attributed to market
4

This is not to say, however, that the new alleged misrepresentations are actionable. Because the Court concludes that the
Erhart Complaint and Seeking Alpha articles discussed in the
TAC cannot serve as a corrective disclosure, the Court need not
decide whether these new allegations of misrepresentations are
actionable.

51a
speculation about whether fraud has occurred. This
type of speculation cannot[, on its own,] form the basis
of a viable loss causation theory.” Id.
Similarly, in Meyer v. Greene, the Eleventh Circuit
held that the SEC’s announcement that it was initiating an inquiry into a company’s real estate valuation
practices did not, on its own, amount to a corrective
disclosure. 710 F.3d 1189 (11th Cir. 2013). As the
court explained, while an “investigation can be seen
to portend an added risk of future corrective
action[, t]hat does not mean that the investigations,
in and of themselves, reveal to the market that a
company’s previous statements were false or fraudulent.” Id. at 1201.
Just like the investigations discussed above, the
Erhart Complaint offered at most unconfirmed accusations of fraud. To be sure, if the accusations were
confirmed to be true through a later disclosure, loss
causation would have been established. See Loos, 762
F.3d at 890 n.3 (“We do not mean to suggest that the
announcement of an investigation can never form
the basis of a viable loss causation theory. Like the
Eleventh Circuit, we merely hold that the announcement of an investigation, `standing alone and without
any subsequent disclosure of actual wrongdoing,
does not reveal to the market the pertinent truth of
anything, and therefore does not qualify as a corrective disclosure.’” (quoting Meyer, 710 F.3d at 1201).
Indeed, that is essentially the facts of Lloyd. There,
the defendant asserted in SEC filings that it did not
have serious doubts about its largest borrower’s ability
to repay debts, despite the defendant’s knowing that
the borrower was on the brink of declaring bankruptcy. Lloyd, 811 F.3d at 1203-04. Soon after, the
defendant disclosed that it had recently received a

52a
subpoena from the SEC. Id. at 1204. Analysts began
surmising that these issues related to the defendant’s
largest borrower. Id. at 1204-05. A month later, the
defendant announced that the borrower would not be
able to pay its debts. Id. at 1205. The Ninth Circuit
explained that the defendant’s announcement about
receiving the subpoena was only a partial corrective
disclosure, which was not completed until the defendant later confirmed the analysts’ fears by announcing
that the borrower would default on its loans. Id. at
1210. The same applies to the Erhart Complaint: while
it raised a risk perhaps even a serious one—that
Defendants had committed fraud, the TAC must
identify a subsequent confirmation of that fraud to
plead loss causation under Rule 9(b).
The Ninth Circuit’s recent decision in Curry v. Yelp
Inc., 875 F.3d 1219 (9th Cir. 2017), also supports this
view. There, the defendants had “consistently stated
that the reviews generated on Yelp’s website were
‘firsthand’ and ‘authentic’ information from contributors about local business.” Id. at 1222. After these
comments were made, the FTC disclosed that it had
received “more than 2,000 complaints from businesses
claiming that Yelp had manipulated reviews of their
services” by removing and promoting reviews based on
a business’s relationship with Yelp. Id. The Ninth
Circuit held that the disclosure of the FTC complaints
could not serve as a corrective disclosure because they
were only accusations. Id. at 1225. According to the
court, controlling precedent made clear that “the element of loss causation cannot be adequately made out
merely by resting on a number of customer complaints
and asserting that where there is smoke, there must
be fire.” Id. The same applies to allegations in Erhart’s
lawsuit: they draw the market’s attention to smoke,
but without more, they do not reveal any fire.

53a
Following the reasoning of Loos, Lloyd, and Curry,
the Court concludes that the allegations in the Erhart
Complaint were, at most, a “partial” corrective disclosure of Defendants’ misrepresentations about Bofl’s
internal controls. They cannot on their own establish
loss causation under the heightened pleading standards of Rule 9(b). If, as in Lloyd, a later disclosure
occurred that confirmed the risk identified by Erhart’s
complaint, the totality of those disclosures would be
sufficiently corrective to establish loss causation. But
for the reasons explained in the next section, the
TAC’s remaining allegations of corrective disclosures
relating to BofI’s internal controls (Seeking Alpha
articles) cannot be considered even another partial
corrective disclosure. As a result, in contrast to Lloyd,
the TAC fails to allege that a later disclosure
confirmed any of the allegations asserted in the Erhart
Complaint.
b. Seeking Alpha Articles
The TAC points to two Seeking Alpha articles and
asserts that they disclosed the falsity of the alleged
misrepresentations relating to Bofl’s internal controls.
Lead Plaintiff points first to an article written by an
author known as “Real Talk Investments” published
on October 29, 2015. (TAC ¶ 131; see Real Talk
Investments, Buyer Beware: More Odd Behavior From
BOFI, Seeking Alpha (Oct. 29, 2015), https://seeking
alpha.com/article/3620436-buyer-beware-odd-behaviorbofi.5) As the Court explained in its previous ruling,
this article notes “significant” differences between a
transcript of a conference call Bofl sent to the SEC and
transcripts of the same call prepared by third parties.
5

The Court takes judicial notice of the Seeking Alpha articles
referenced in the TAC. Lee v. City of Los Angeles, 250 F.3d 668,
688 (9th Cir. 2001).

54a
The differences noted in this article related to whether
the OCC was conducting an investigation into BofI;
the largest deposit account at BofI; and why Bofl
switched external auditors “some years ago.” (ECF No.
134 at 17-18.) But as the Court explained in its
previous ruling, this article did not disclose any new
information to the public because the differing transcripts were already publicly available. According to
the TAC, “[w]hile the Bofl transcript and the webcast
were both available prior to October 29, the market did
not appreciate the small but significant differences in
the two ... until the article compared the discrepancies
side-by-side.” (TAC ¶ 132.) The TAC fails to identify
any reason why the market did not appreciate the
significance of the difference in the transcript versions, and Lead Plaintiff offers no such explanation in
its briefing. As this Court explained in its previous
ruling, Lead Plaintiff’s failure to offer a plausible
reason why the market would not have understood the
implications of already public information dooms Lead
Plaintiff’s use of this article as a corrective disclosure.
“Plaintiff does not suggest that, for example, the
information discussed in [this article] constitute[d]
‘complex economic data understandable only through
expert analysis.’” (ECF No. 134 at 15 (quoting Amedisys,
769 F.3d at 323, and citing In re Herbalife, Ltd. Secs.
Litig., No. CV 14-2850 DSF (JCGx), 2015 WL 1245191,
at *3 (C.D. Cal. Mar. 16, 2015) (granting motion to
dismiss because the complaint “provides no basis to
conclude that Pershing’s conclusions required expert
analysis or that the underlying information was not
available to the public”), and In re Blue Earth, Inc.
Secs. Class Action Litig., No. CV 14-08263-DSF (JEMx),
2015 WL 12001274, at *2 (C.D. Cal. Nov. 3, 2015).)
In its opposition memorandum, Lead Plaintiff contends
that the Court was wrong to reject the Seeking Alpha

55a
articles as corrective disclosures in its previous ruling
because “[n]umerous courts in this Circuit ... have held
that analyst reports using publicly available information can indeed constitute corrective disclosures.”
(ECF No. 148 at 5.) The cases Lead Plaintiff cites,
however, are not useful in this analysis because they
fail to apply Rule 9(b)’s heightened pleading standard
to the allegations of corrective disclosure.
See Gilead, 536 F.3d 1049 (predating the Ninth
Circuit’s holding in Apollo Group that Rule 9(b) applied
to allegations of loss causation and corrective disclosures);
In re Banc of Cal. Secs. Litig., No. SACV 17-00118 AG
(DFMx), 2017 WL 3972456, *9 (C.D. Cal. Sept. 6, 2017)
(“[T]he Court finds it inappropriate to apply a heightened pleading standard for loss causation.”); Garcia v.
Hetong Guo, No. CV-15-1862-MWF-MRWx, 2016
WL 102213, at *9-11 (C.D. Cal. Jan. 7, 2016) (omitting
any discussion of the implications of the heightened
pleading standard); In re Questcor Secs. Litig., No. SA
CV 12-01623 DMG (FMOx), 2013 WL 5486762, at *21
(C.D. Cal. Oct. 1, 2013) (predating Apollo Group). As
discussed at length in the Court’s prior ruling, one of
the consequences of applying Rule 9(b) to allegations
of a corrective disclosure based on publicly available
information is that the pleading must offer a plausible
reason why the market would not have understood the
implications of that information offered by the article’s
author. (See ECF No. 14-17.)
Next, the TAC cites a January 6, 2016, article
written by an author known as “Aurelius.” (See ECF
No. 123-8.) As discussed in the Court’s previous ruling,
this article “states that Bofl’s audit committee had
been `infected by related party loans to members of the
committee,’” “notes that multiple public documents
indicate that Grinberg served as a `key executive’ in a

56a
third party [Propel Tax] that received financing from
Bofl while Grinberg was serving as Bofl’s Audit
Chairman,” “criticizes Bofl for not disclosing these
deals,” “explains how Grinberg’s dual roles in Bofl
and [Propel Tax] creates a conflict of interest,” and
“suggests that the failure to disclose this information
indicates defects in Bofl’s `internal audit function.’”
(ECF No. 134 at 19.) As with the previous article, this
article was written based on public information. (ECF
No. 123-8 at 19 (“All information for this article was
derived from publicly available information.”).) Yet
the TAC, again, fails to indicate why the market would
not have understood the implications of this information. Rather, the TAC repeats the conclusions of
the article. (TAC ¶ 134 (“[T]he article identified the
relationships between Bofl and Propel Tax, as well as
Defendant Grinberg’s relationship with Propel Tax,
which could have compromised the Audit Committee
and Company’s investigation of the Erhart Complaint
and therefore called into question the adequacy of the
Company’s internal controls and risk management
provisions.”).) This is not an explanation of why the
market would not have understood the implications
of the public information, but rather an explanation
of the implications themselves. The TAC does not
suggest why other market participants could not
have done the same analysis and reached the same
conclusion. Without more, this article did not reveal
anything that demonstrated the falsity of the alleged
misrepresentations listed above or confirm for the first
time any of the allegations in Erhart Complaint.
In sum, the allegations in the Erhart Complaint
offered, at most, only partial corrective disclosures of
the falsity of the alleged misrepresentations discussed
above. Because the two Seeking Alpha articles cited by
the TAC discussed publicly available information,

57a
they did not confirm for the first time any of Erhart’s
allegations. The TAC’s allegations of loss causation
regarding misrepresentations about Bofl’s internal
controls are insufficient to meet the heightened pleading standards of Rule 9(b).
ii. Underwriting Standards
Quality Requirements

and

Credit

In the second category of allegations, Lead Plaintiff
asserts that Defendants made several misrepresentations regarding Bofl’s underwriting standards and
credit quality. The TAC identifies statements by Defendants that every Bofl loan must meet the underwriting
criteria set forth in Bofl’s lending policies and applicable regulations and that Bofl considered many aspects
of a borrower’s credit (TAC ¶ 136); that off-balancesheet loans must meet the same credit policies as
on-balance-sheet loans (id.); that Bofl creates only
“full documentation loans” (id. ¶ 138); that Bofl had no
commitments to purchase loans, investment securities,
or any other unused lines of credit (id. ¶ 139); that Bofl
did not reduce its “conservative” credit standards
while achieving significant portfolio growth (id. ¶ 141);
and that its partnership with H&R Block would add
“strength and diversity” to its “deposit, lending and
fee income businesses” and aligned well with Bofl’s
branchless structure (id. ¶ 146). According to the TAC,
these statements were false because BofI engaged in
“unsound lending practices,” its off-balance sheet
activities “included undisclosed lending partnerships”
subjecting Bofl to significant credit and regulatory
risk, and Bofl violated banking regulations by failing
to maintain an adequate Customer Identification
Program (“CIP”). (Id. ¶¶ 149-216.)
According to the TAC, the falsity of these misrepresentations were revealed to the market by way of

58a
Seeking Alpha articles. First, it cites an article published on August 28, 2015 by the author “The Friendly
Bear,” entitled “The New York Times Has Only
Scratched the Surface on Bofl Holding . . .” (ECF No.
123-4.) As discussed in the Court’s previous ruling,
this article states in relevant part “that Bofl’s
preferred loan clients are `home flippers and other
speculators — a behavior that resulted in the failure
of its “predecessors” Indymac and Thornburg (i.e.,
allowing borrower to borrow against existing properties, regardless of current lien status, in order to buy
additional investment properties),’ and that Bofl was
‘[m]aking loans to individuals who are “unsavory” in
nature and hardly appear credit-worthy for multimillion dollar loans.’ (ECF No. 134 at 12.) The article
also “suggests that Bofl is lending to individuals
who cannot get a loan at their regular bank institution, and that county records demonstrate that Bofl’s
on-balance sheet loans `are sourced through mortgage
brokers.’ (Id.) The article concludes that Bofl’s fivepercent-interest loans are “by definition, economically
irrational” and that “Bofl must be lending to individuals ‘with heaps of existing debt, tax liens, gambling
debt, an inability to put more cash at closing, or a
history of bankruptcy/foreclosure.’” (Id.) The article
also describes “that the SEC’s recent response to the
author’s FOIA request suggested that the agency was
investigating Bofl and that Bofl did business with a
mortgage company that advertised loans available to
borrowers form Russia, a country appearing on OFAC’s
sanctions list.” (TAC ¶ 218.)
The TAC impliedly concedes that all the information
relied upon by the author of the August 28, 2015
article was publicly available, but again asserts that
the article “relied on information the market had
failed to previously appreciate and incorporate into

59a
the Company’s stock price.” (Id. ¶ 219.) This time,
the TAC suggests a reason that the market might not
have understood the implications of this information.
It states that the author was only able to reach its
conclusions because the author “pored through hundreds
of loans that Bofl has written over the past several
years,” and held “conversations with mortgage brokers.”
(Id.) But that is not a plausible reason why the market
would not have understood the implications of this
publicly available information. The TAC offers no
reason to believe that the majority of other actors in
the market would not have been able to also “pore
over” the information or hold conversations with
mortgage brokers. “Under an efficient market theory,
it is not necessary for any specific individual to track
down every piece of information on every stock. One
presumes that all public information is incorporated
into the market price no matter how far flung it may
be.” Bonanno, 2016 WL 4585753, at *5; see also Miller
v. PCM, Inc., No. LACV 17-3364VAP (KSx), ECF
No. 42 (C.D. Cal. Jan. 3, 2018) (rejecting plaintiff’s
argument that a Seeking Alpha article was a corrective disclosure because “much of the information it
relayed to the public would be burdensome for the
average investor to access”). In other words, the
presumption of market efficiency that the TAC relies
upon to demonstrate reliance assumes that actors in
the market have already “pored over” all publicly
available information and drawn all reasonable inferences from that information: “[a]n efficient market for
good news is [also] an efficient market for bad news.”
In re Merck & Co., Inc. Secs. Litig., 432 F.3d 261, 271
(3d Cir. 2005). What is important in this analysis is
not that it took the author a lot of time to aggregate
the data, but rather that the author was able to engage
in some analysis that was not available to other

60a
market participants. The TAC offers no plausible
reason to believe that was the case here.
Next, the TAC cites an article published November
10, 2015, by Aurelius entitled “Bofl: Boiler Rooms, Bad
Loans, and Off-Balance Sheet Maneuvers Underpin
Poorly Understood Risks.” (ECF No. 123-5.) As discussed in the Court’s previous ruling, this article
states: “while `the soundness of Bofl’s mortgage
lending practices have [recently] been questioned, . . .
[t]his writing attempts to shed light on an equally
important piece of the mosaic. Sourced entirely from
publicly available records, this article exposes how a
network of boiler rooms, bad loans, and off-balance
sheet maneuvers appears to have boosted Bofl’s reported
operating results while adding greatly to it[s] risk
profile.” (ECF No. 134 at 12-13.) The article discusses
“how Bofl had ‘aggressively expanded’ into commercial
and industrial (“C&I”) businesses, but notes that Bofl
‘offers only limited disclosures’ as to its activities,
especially its C&I loans.” (Id. at 13.) It also states “that
despite Bofl’s perceived success, “[a] search of public
records . . . reveals that the courts has been flooded
with collections and/or bankruptcy cases involving
loans that Bofl has originated.’” (Id.) It explains “this
contradiction by stating that ‘it appears’ that lending
partners such as OnDeck purchase loans originated
by Bofl,” and also discusses “Bofl’s relationships with
Quick Bridge, and the ‘potential existence’ of offbalance-sheet SPEs [Special Purpose Entities].” (Id.)
“The article also indicates that Bofl has partnered
with ‘Rehab Cash Now,’ which advertises loans with
no minimum credit score,” and “notes that Bofl has
also engaged in structured settlement loans, citing
recent public court documents, which [Aurelius] notes
‘hardly appears sustainable.’” (Id.)

61a
The TAC offers no reason why the market would not
have drawn the same conclusions from the publicly
available information relied upon in the November 10,
2015 article. Rather, it states only that the article
“identified the relationships between Bofl and the
third-party lenders by studying those lender’s own
SEC filings, rather than Bofl’s,” and “also analyzed
how the third party lenders’ substandard underwriting standards would increase the risk in Bofl loan
portfolio.” (TAC ¶ 221.) Again, this allegation merely
repeats the conclusions reached in the article; it does
not suggest why other market participants would not,
or could not, have reached those conclusions otherwise. Because the TAC does not identify any such
reason (and Lead Plaintiff fails to offer any such
reason in its briefing), the November 10 article cannot
serve as a corrective disclosure.
Next, the TAC points to an article published on
November 18, 2015, by Real Talk Investments entitled
“Undisclosed Executive History May Be Final Blow for
Bofl.” Seeking Alpha (Nov. 18, 2015), https://seek
ingalpha.com/article/3695396-undisclosed-executive-hi
story-may-final-blow-bofi. The article “revealed that
Bofl had employed a felon convicted of grand theft,
forgery of a credit card receipt, burglary, and dealing
in stolen property, in violation of Section 19 of the
FDIA,” and “that Bofl issued two loans to the individual even after he filed for bankruptcy.” (TAC ¶ 222.)
According to the author, the article was “based upon
information reasonably available to the author and
obtained from public sources that the author believes
are reliable.” (ECF No. 144-3.) Again, however, the
TAC fails to identify (and Lead Plaintiff does not
explain in its briefing) why the market would not
have drawn this same conclusion based on the same
information, other than stating that the author

62a
“analyzed loan files” and “conducted background
checks” in writing the article. (TAC ¶ 223.) There is no
reason to believe that any other market actor could
not have done the same thing. As Defendants argue,
the article engages in no formal analysis; rather, it
“merely compar[es] [the employee’s decades old and
publicly available] mugshot picture to his Linkedln
pictures, [and] compar[es] DOB data from his mugshot
with DOB records from public sources that point to an
exact match.” (ECF No. 144-1 at 20.) In fact, the article
“disclaim[ed] any expertise in forensic handwriting
analysis, and claims no expertise in photographic or
facial analysis.” (Id. (citation omitted).) As discussed
above, the Court must assume that market actors
engaged in similar analysis at the time the information became publicly available, unless Lead Plaintiff
offers a reason to presume otherwise. Lead Plaintiff’s
failure to do so requires that the Court conclude this
article was not a corrective disclosure.
Next, the TAC cites an article published on
November 19, 2015, by Aurelius entitled “Bofl: Risky
Loans to Undisclosed, Off-Balance Sheet SPEs Found
Disguised Within Mortgage Warehouse Portfolio.”
(See ECF No. 123-6.) According to the TAC, this article
“revealed” to the market Bofl’s lending relationship
with Center Street, “which was known for fix and flip,
‘no doc’ and ‘no FICO,’ and `no income verification
loans,’ and “noted that nearly $300 million in risky
single-family lender finance loans Bofl made to Center
Street SPEs were disguised as `Warehouse and other’
loans on Bofl’s financial statements.” (TAC ¶ 224.)
According to the article, the author reached this
conclusion by reviewing “UCC statements obtained
from California’s public database.” (ECF No. 123-6
at 5.) Contrary to the TAC’s assertion, the fact that
the UCC statements were available to the public

63a
demonstrates that the author did not “reveal” to the
market the fact of Bofl’s relationship with Center
Street. The TAC does not identify (and Lead Plaintiff
does not explain in its briefing) any special analysis
conducted by the author of the article. Instead, the
TAC asserts in conclusory fashion that the article
“provided detailed analysis of how BofI’s relationship
with Center Street was likely to increase the amount
of risk in the portfolio.” (TAC ¶ 225.) This is not
enough to meet the particularity requirements of Rule
9(b).
The TAC next cites another Aurelius article published on December 8, 2015, entitled “BofI Confirmed
to Finance Undisclosed, Off Balance Sheet SPE to
which it Transfers Bad Loans.” (ECF No. 123-7.) The
article “included an image of a UCC Financing
Statement showing BLG as the Debtor and Bofl” as
the secured party. (TAC ¶ 226.) It also described how
the UCC Financing Statement referred to a “Master
Loan and Security Agreement dated February 12,
2014” between Bofl and borrower WCL Holdings I,
LLC. (Id.) “The article notes that BofI’s failure to
disclose its relationship with Quick Bridge or WCL
may be in violation of applicable accounting standards
and that WCL may require consolidation.” (Id.) “All
information for th[e] article was derived from publicly
available information.” (ECF No. 123-7 at 7.) As with
the articles above, the TAC does not identify (and Lead
Plaintiff does not include in its briefing) why the
market would not have been reasonably able to draw
the same conclusions from the same information prior
to the article’s publication. (See TAC ¶ 227 (repeating
conclusions of the article, but not suggesting what
analysis was done to reach these conclusions).) As
Defendants argue, nothing in this article “suggests
that the market needed, much less that the [author]

64a
was qualified to offer, any legal or accounting
judgment about BofI’s relationship with Quick Bridge
and WCL” to reach the author’s conclusions. (ECF No.
144-1 at 21.)
Finally, the TAC points to an article published by
Aurelius on February 3, 2016, entitled “Why Bofl
Created a Phantom `Full Service Branch’ in the
Nevada Desert.” Seeking Alpha (Feb. 3, 2016), https://
seekingalpha.com/article/3859626-bofi-created-phantomfull-service-branch-nevada-desert. This article reported
that Bofl was no longer “branchless” because it had
opened, according to the FDIC, a “full service” branch
in Nevada. (TAC ¶ 228.) The author had visited the
branch and discovered that it was “located in shared
and tightly compacted office space housing dozens of
small businesses and BofI’s office was approximately
75 square feet,” and that only one person worked in
the branch. (Id.) The article concluded that, under
Bofl’s program management agreement with H&R
Block, the Nevada branch was “booking” hundreds of
millions of dollars as a way to take advantage of
Nevada’s lax interest-rate laws. (Id.) Again, the TAC
does not provide (and Lead Plaintiff does not argue in
its briefing) why the market would not have reached
this conclusion based on the same information other
than conclusively asserting “[t]he market did not
appreciate that Bofl was opening the Nevada ‘branch’
for purposes of taking advantage of Nevada’s usury
laws, and was only made aware of BofI’s real motives
once an individual from Seeking Alpha investigated
the branch in person and reported the true purpose
behind the opening of this ‘branch.’” (Id. ¶ 229.) There
is no reason to believe, for example, that market
participants could not have visited the Nevada branch
prior to Aurelius’s visit and reached the exact same
conclusion. As a result, the TAC fails to allege with

65a
particularity that this article was a corrective
disclosure.
In sum, none of the Seeking Alpha articles cited in
the TAC served as corrective disclosures of the alleged
misrepresentations relating to Bofl’s underwriting
standards and credit quality requirements.
iii. Regulatory Investigations
Last, the TAC offers allegations that Defendants
made materially false and misleading statements
relating to government and regulatory investigations.
The TAC alleges that none of Bofl’s SEC filings
mentioned any government or regulatory investigation. (TAC ¶ 231.) In particular, the TAC alleges that
Defendants failed to disclose an SEC investigation
into Bofl that was commenced in May 2015. (Id.
¶¶ 230-31.) On October 29, 2015, Defendants stated in
a Form 10-Q that “from time to time we may be a party
to other claims or litigation that arise in the ordinary
course of business, such as claims to enforce liens,
claims involving the origination and servicing of loans,
and other issues related to the business of the Bank,”
but that “[n]one of such matters are expected to have
a material adverse effect on the Company’s financial
condition, results of operations or business.” (Id.
¶ 231.) In a New York Times article published on
August 22, 2015, Garrabrants stated that regulatory
concerns over Bofl’s loans to foreigners were “beyond a
nonissue.” (Id. ¶ 232.) During an earnings call on
October 14, 2015, Garrabrants responded to a question
regarding the OCC’s response to Erhart’s accusations
of Bofl by saying that “[t]here is nothing ongoing” with
respect to an OCC investigation, “there is no continuity to this,” that “[w]e have great regulatory relations,”
“[we] are under no regulatory orders, no regulatory
restrictions on our business, and we continue to have

66a
a great dialogue with our regulators,” and “[t]here are
no regulatory issues of any kind that have arisen from
Mr. Erhart’s contact with the OCC.” (Id. ¶¶ 233-34.)
According to the TAC, these statements were false
because the SEC began an investigation into Bofl in
May of 2015. (Id. ¶ 235.) The TAC also alleges that
these statements were false in light of Erhart’s allegations that when he worked at Bofl there were “many
[ongoing] subpoenas, including from law enforcement
agencies, grand juries, and even from the U.S.
Department of Treasury.” (Id. ¶ 245.) The TAC also
alleges that these statements were false or misleading
because on October 30, 2015, Bofl filed a motion to seal
certain filings in litigation against Erhart. Those
filings included documents relating to “nonpublic
agency investigations,” “investigations by the OCC,”
“confidential government subpoenas,” and “records
identifying the existence (and, in some cases, the
subject matter) of investigations by the OCC.” (Id.
¶¶ 236-37, 246.) BofI’s motion contained a “declaration
by a forensic investigator hired by BofI to examine
Erhart’s computer for confidential information,” who
found documents containing file names evidencing
“communications with regulators,” and subpoenas.
(Id. ¶ 236; see Bofl Fed. Bank v. Erhart, No. 3:15-cv02353-BAS-NLS, ECF No. 8-1 (S.D. Cal.).) A chart
accompanying the motion indicated that some of the
documents would reveal the “existence and nature of
confidential regulator communications.” (Id. ¶ 237.)
The TAC also cites an SEC FOIA response that
indicated that it had initiated an investigation into
Bofl on May 28, 2015, and had issued subpoenas after
the Class Period on February 22, 2016, and October
19, 2016. (Id. ¶¶ 238-39.)

67a
a. Misrepresentations
The Court first considers whether these identified
statements are actionable under the heightened
pleading standards of Rule 9(b) and the PSLRA. The
Court concludes that they are not.
“[A] statement is misleading if it would give a
reasonable investor the impression of a state of affairs
that differs in a material way from the one that
actually exists.” Berson v. Applied Signal Tech., Inc.,
527 F.3d 982, 985 (9th Cir. 2008). In this context, a
misleading statement is distinguished from “puffery,”
which “concerns expressions of opinion, as opposed to
knowingly false statements of fact.” Apollo Grp., 774
F.3d at 606. Such “mildly optimistic, subjective assessment hardly amounts to a securities violation.” Id.
(quoting In re Cutera Secs. Litig., 610 F.3d 1103, 111
(9th Cir. 2010)). Rather, in this context, a material
misrepresentation is one that is “capable of objective
verification.” Id.
Lead Plaintiff has not identified any duty held by
Defendants to disclose the existence of an SEC investigation into Bofl. Rather, it argues that the failure to
disclose the existence of an SEC investigation rendered
the statements listed above false or misleading. The
Court disagrees. First, Bofl’s statements in its SEC
filings that it did not “expect” that litigation against it
would “have a material adverse effect on the
Company’s financial condition, results of operations or
business” is prototypical opinion-based puffery. See id.
(rejecting as puffery the statement “[w]e believe that
our track record for enrollment and revenue growth
is attributable to . . .”). The truthfulness of that
statement would not have changed in any respect if
Bofl had also stated that the SEC was investigating
Bofl’s conduct.

68a
Second, Garrabrants statements in the New York
Times that regulatory inquiries were “beyond a
nonissue,” and his statement during the conference
call that there were no “regulatory issues,” are simply
too vague to be false or misleading. Neither statement
clarified what the definition of an “issue” might be. A
reasonable investor hearing these words would have
interpreted those statements to mean not that
regulators had no interest in Bofl’s conduct, but rather
that regulatory interest in Bofl was not, for example,
a “big deal.” There is no way to objectively verify the
truthfulness of these statements because whether
regulatory interest into Bofl was an “issue” depends on
the subjective understanding of the meaning of the
term “issue.”
Next, the TAC does not indicate any reason to
believe that Garrabrants’s conference call statements
in response to a question about an OCC investigation
was false in light of the fact that there was an ongoing
SEC investigation at the time. According to the TAC,
Garrabrants was asked by an analyst whether the
OCC “let [Garrabrants] know that there is nothing
ongoing related to these concerns that [Erhart] raised,
that they are still investigating at this point?” (TAC
¶ 233.) Garrabrants answered that he had to be
“careful” about what “the OCC is doing,” but that
“there is nothing ongoing,” “there is no continuity to
this,” and that Bofl had “great regulatory relations,”
was under no “regulatory orders” or “regulatory
restrictions on our business,” and that Bofl had “great
dialogue with our regulators.” (Id.) The fact that an
SEC investigation might have been ongoing at this
time does not render false the statements that there
was nothing ongoing, or there was no “continuity,”
with respect to the OCC. The SEC and OCC are
separate regulatory bodies. As for the statements

69a
regarding “regulatory orders” or “restrictions,” the
TAC does not allege that the SEC’s investigation at
the time of the conference call included any “orders” or
“restrictions.” And the remaining statements—that
Bofl had “great regulatory relations” and enjoyed a
“great dialogue” with regulators—are too vague to
hold any objective meaning. Cutera, 610 F.3d at 1111
(rejecting as too vague the statement that “we believe
our employee relations are good”).
In sum, the TAC does not allege that Defendants
made any actionable misrepresentations regarding
regulatory investigations into Bofl. But even if these
statements were actionable, Lead Plaintiff’s claims
fail because—for the reasons explained immediately
below—the corresponding allegations of loss causation
do not satisfy Rule 9(b)’s requirements.
b. Loss Causation/Corrective Disclosures
The TAC points to three events as corrective
disclosures of the falsity of the statements. First, the
TAC cites The Friendly Bear’s article, discussed above,
published on Seeking Alpha on August 28, 2015. (Id.
¶ 242.) The author noted in that article that in
responding to a recent FOIA request submitted by the
author, the SEC invoked FOIA’s law enforcement
exemption protecting “records compiled for law enforcement purposes, the release of which could reasonably
be expected to interfere with enforcement activities.”
(Id.) This response was different from the SEC’s
responses to the author’s previous FOIA requests,
which had stated that the SEC possessed no records
responsive to the author’s inquiry. (Id. ¶ 243.) Second,
the TAC points to the Erhart Complaint, which in
relevant part alleged that during Erhart’s time at Bofl
he “saw a BSA spreadsheet that identified many

70a
subpoenas, including from law enforcement agencies,
grand juries, and even from the U.S. Department of
Treasury,” and that Bofl received many subpoenas.
(Id. ¶ 245.) Third, the TAC cites Bofl’s filing of the
motion to seal, discussed above. (Id. ¶ 246.)
The listed corrective disclosures are insufficient to
show loss causation. The Friendly Bear’s article cannot
serve as a corrective disclosure of the falsity of any of
the statements above for two reasons. First, as with
the other Seeking Alpha articles, the information
discussed was publicly available. Lead Plaintiff offers
no reason to believe that other market participants
could not have also requested information from the
SEC about any investigations into Bofl and received
the same response. Nor did the article’s author engage
in any specialized analysis. Any other market
participant could have made the same inference based
on the SEC’s response. Second, even if the article
revealed new information to the market, it did not
disclose the SEC investigation referenced in the TAC.
Instead, it merely showed that the SEC was
considering an investigation into Bofl. Because The
Friendly Bear’s article did not identify the contents of
any SEC investigation, the SEC’s response suggested
at most a risk that Garrabrants’s statement that there
were no regulatory “issues” resulting from Erhart’s
contacts with the OCC was false. As discussed above,
the disclosure of the possibility of a statement’s falsity
cannot itself serve as a corrective disclosure. Loos, 762
F.3d at 888-89.
Even considering The Friendly Bear’s article in
conjunction with the other two alleged disclosures, no
actual corrective disclosure occurred. The Erhart
Complaint’s assertion that Bofl “frequently” received
regulatory subpoenas did not disclose the existence of

71a
the SEC investigation at issue here. Similarly, the
motion to seal filed by Bofl in its action against Erhart
suggested, at most, that regulators had issued subpoenas
to Bofl at some point. The motion did not indicate
whether the documents sought to be sealed were
relevant to Erhart’s interactions with the OCC. Bofl’s
assertion in the motion to seal that subpoenas had
been issued to Bofl at some point while Erhart worked
there—therefore did not disclose, or confirm, the
falsity of any of the statements listed above. See
Metzler, 540 F.3d at 1064 (holding a disappointing
earnings announcement was not sufficiently tied to
specific wrongdoing to produce the inference that the
market “realized” the fraud once the earnings announcement was released).
In sum, the TAC’s allegations of loss causation with
respect to alleged misrepresentations about regulatory investigations do not meet Rule 9(b)’s pleading
standard.
IV. Section 20(a) Claims
Lead Plaintiff makes clear that its Section 20(a)
claims are derivative of its Section 10(b) claims. (ECF
No. 148 at 21.) Because the Court concludes that the
TAC fails to state a claim for a violation of Section
10(b), the Section 20(a) claims also fail. See Curry, 875
F.3d at 1228.
V. Conclusion
In sum, the Court concludes that the TAC’s allegations are insufficient to meet the applicable heightened
pleading standards. Because the TAC fails to state a
plausible claim for a violation of the securities laws, it
also fails to state a violation of Section 20(a).

72a
This was Lead Plaintiff’s third iteration of its complaint, and it appears that any further amendment
would not survive another motion to dismiss. The
Court concludes that another opportunity to amend is
not warranted. See Zucco Partners, LLC v. Digimarc
Corp., 552 F.3d 981, 1007 (9th Cir. 2009) (“The fact
that Zucco failed to correct these deficiencies in its
Second Amended Complaint is a strong indication that
the plaintiffs have no additional facts to plead.”
(internal quotation marks omitted)). As a result, the
Court GRANTS Defendants’ motion to dismiss and
DISMISSES Lead Plaintiff’s claims against
Defendants with prejudice.
IT IS SO ORDERED.
Dated: March 21, 2018
/s/ Gonzalo P. Curiel
Hon. Gonzalo P. Curiel
United States District Judge

73a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: November 16, 2020]
————
No. 18-55415
D.C. Nos.
3 :15-cv-02324-GPC-KSC
3 :15-cv-02486-GPC-KSC
Southern District of California, San Diego
————
IN RE: BOFI HOLDING, INC. SECURITIES LITIGATION,
————
HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Plaintiff-Appellant,
v.
BOFI HOLDING, INC., et al.,
Defendants-Appellees.
————
ORDER
Before: WATFORD, BENNETT, and LEE, Circuit
Judges.
Judge Watford and Judge Bennett vote to deny
the petition for panel rehearing. Judge Lee votes to
grant the petition for panel rehearing. The panel
unanimously votes to deny the petition for rehearing
en banc. The full court has been advised of the petition
for rehearing en banc, and no judge requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for panel rehearing and rehearing
en banc, filed October 22, 2020, is DENIED.

